<html>
<title> - BUILDING THE CRITICAL HEALTH INFRASTRUCTURE FOR VETERANS IN JACKSONVILLE, FLORIDA</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
            BUILDING THE CRITICAL HEALTH INFRASTRUCTURE FOR
                   VETERANS IN JACKSONVILLE, FLORIDA

=======================================================================

                             FIELD HEARING

                               before the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 20, 2009
                 FIELD HEARING HELD IN JACKSONVILLE, FL

                               __________

                           Serial No. 111-11

                               __________

       Printed for the use of the Committee on Veterans' Affairs


                  U.S. GOVERNMENT PRINTING OFFICE
49-909                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                     COMMITTEE ON VETERANS' AFFAIRS

                    BOB FILNER, California, Chairman

CORRINE BROWN, Florida               STEVE BUYER, Indiana, Ranking
VIC SNYDER, Arkansas                 CLIFF STEARNS, Florida
MICHAEL H. MICHAUD, Maine            JERRY MORAN, Kansas
STEPHANIE HERSETH SANDLIN, South     HENRY E. BROWN, JR., South 
Dakota                               Carolina
HARRY E. MITCHELL, Arizona           JEFF MILLER, Florida
JOHN J. HALL, New York               JOHN BOOZMAN, Arkansas
DEBORAH L. HALVORSON, Illinois       BRIAN P. BILBRAY, California
THOMAS S.P. PERRIELLO, Virginia      DOUG LAMBORN, Colorado
HARRY TEAGUE, New Mexico             GUS M. BILIRAKIS, Florida
CIRO D. RODRIGUEZ, Texas             VERN BUCHANAN, Florida
JOE DONNELLY, Indiana                DAVID P. ROE, Tennessee
JERRY McNERNEY, California
ZACHARY T. SPACE, Ohio
TIMOTHY J. WALZ, Minnesota
JOHN H. ADLER, New Jersey
ANN KIRKPATRICK, Arizona
GLENN C. NYE, Virginia

                   Malcom A. Shorter, Staff Director

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


                            C O N T E N T S

                               __________

                             April 20, 2009

                                                                   Page
Building the Critical Health Infrastructure for Veterans in 
  Jacksonville, Florida..........................................     1

                           OPENING STATEMENTS

Chairman Bob Filner..............................................     1
    Prepared statement of Chairman Filner........................    44
Hon. Steve Buyer, Ranking Republican Member......................     3
    Prepared statement of Congressman Buyer......................    44
Hon. Corrine Brown...............................................     7
Hon. Ander Crenshaw..............................................     8

                               WITNESSES

U.S. Department of Veterans Affairs:
    Robert L. Neary, Jr., Director, Service Delivery Office, 
      Office of Construction and Facilities Management...........    30
        Prepared statement of Mr. Neary..........................    50
Reginald M. Lawrence, SRCT, CPP, Team Leader, Jacksonville, Vet 
  Center, Readjustment Counseling Service, Veterans Health 
  Administration.................................................    32
    Prepared statement of Mr. Lawrence...........................    51

                                 ______

Disabled American Veterans, Guy Diffenbaugh, Commander, 
  Jacksonville, FL, Chapter 1....................................    17
    Prepared statement of Mr. Diffenbaugh........................    46
Duval County School Board Member, District 1, Jacksonville, FL, 
  Colonel Stan Jordan, USA (Ret.)................................    25
    Prepared statement of Colonel Jordan.........................    50
Jacksonville, FL, City of, Military Affairs, Veterans and 
  Disabled Services Division, Gunnery Sergeant Herschel Allen, 
  USMC (Ret.), Duval County Veteran Service Officer/Veteran 
  Service Officer Supervisor.....................................    10
    Prepared statement of Sergeant Allen.........................    45
Jacksonville, FL, National Cemetery Advisory Committee, Corporal 
  Daniel V. Hughes, Sr., USMC (Ret.), Chairman...................    23
    Prepared statement of Corporal Hughes........................    48
Montford Point Marine Association, Master Sergeant James H. 
  Tippins, USMC (Ret.), President, Chapter 29, Jacksonville, FL..    18
    Prepared statement of Sergeant Tippins.......................    47
Northeast Florida Veterans Council, Jacksonville, FL, Hallie 
  Williams-Bey, Chairman.........................................    16
    Prepared statement of Mr. Williams-Bey.......................    46
Wallace, Stephen, President, Florida Community College at 
  Jacksonville, FL...............................................     6


            BUILDING THE CRITICAL HEALTH INFRASTRUCTURE FOR
                   VETERANS IN JACKSONVILLE, FLORIDA

                              ----------                              


                         MONDAY, APRIL 20, 2009

                     U.S. House of Representatives,
                            Committee on Veterans' Affairs,
                                                    Washington, DC.

    The Committee met, pursuant to notice, at 12:25 p.m., at 
the Donald T. Martin Center for College Services, 501 W. State 
Street, Jacksonville, Florida, Hon. Bob Filner [Chairman of the 
Committee] presiding.
    Present: Representatives Filner, Brown of Florida, and 
Buyer.
    Also Present: Representative Crenshaw.

              OPENING STATEMENT OF CHAIRMAN FILNER

    The Chairman. Good morning everybody.
    My name is Bob Filner. I am Chairman of the House Veterans' 
Affairs Committee, and we are so excited to be here in 
Jacksonville for the hearing to address the critical health 
infrastructure of the Department of Veterans Affairs.
    We have two housekeeping items to attend to before we get 
started. I need to ask unanimous consent that our colleague, 
Mr. Crenshaw, be invited to sit with the full Committee today.
    Ms. Brown of Florida. Without objection.
    The Chairman. Hearing no objection, so ordered.
    Thank you for being here. I know you have a district 
surrounding us, and I thank you so much for being here today. I 
also ask unanimous consent that all Members may have 5 
legislative days in which to revise and extend their remarks.
    Hearing no objection, so ordered.
    Of course, we thank the Florida College for their 
hospitality in hosting the event. We have been invited to hold 
this hearing by Congresswoman Brown. She is, of course, on the 
Committee and she is the second person in line of seniority. We 
came to the House together in 1992, but when I say Ms. Brown, 
invited us, I mean, that an invitation implies a choice. When 
Ms. Brown invites you, you don't have a choice.
    You have a real tenacious Congresswoman in the Congress. I 
think you know that. She doesn't take ``no'' for an answer.
    Generally, the Ranking Member and I go different places, 
but we are all here together because of Ms. Brown.
    Thank you, Mr. Buyer, for being here. It is not always the 
case that both parties send people to a field hearing, and we 
are so glad that Mr. Crenshaw and Mr. Buyer are here along with 
Ms. Brown.
    As part of our job, we have oversight of the U.S. 
Department of Veterans Affairs (VA) and we want to make sure 
that the resources are in place to meet the needs of our 
veterans--no matter where they are located. We are doing a lot 
of oversight with the new veterans from Iraq and Afghanistan, 
and we expect an influx of hundreds of thousands of veterans as 
that war is drawn down this year.
    But we have veterans from World War II, Korea, Vietnam, and 
the first Persian Gulf War. We cannot forget about them. We owe 
every one of our veterans the highest quality treatment and the 
best access to care.
    I see there are two men over here who are wearing hats, 
representing the Filipino World War II veterans. I happen to 
know them from other cities where they have lived. I want to 
acknowledge that the Filipinos were drafted into World War II 
and helped us win the war in the Pacific. We would not have won 
it so quickly without them.
    After they got their independence in 1946, the Congress at 
the time said, all the benefits we promised you, that is the 
responsibility of the new Philippine government. For 62 years, 
they have been trying to get the benefits that have been 
denied, and a few weeks ago, Congress passed a law which gives 
them pension and health care benefits as a way to say thank 
you, even though it is 6 decades later. Thank you and we are 
glad we were able to finally give you the justice that you 
deserve and fought so hard for.
    We do know that the VA has made some progress locally on 
the health infrastructure with the new Gainesville Tower 
Project. We would not have had that without the effort of Ms. 
Brown. The new bed tower will correct deficiencies in patient 
privacy. There are over 245,000 square feet with four floors 
that will house 226 single-bed patient rooms with private baths 
and a ground floor to house supportive services.
    We have a lot of challenges in Jacksonville. The veterans 
here have been waiting for more than a decade for a replacement 
outpatient clinic in this city. This is not acceptable to Ms. 
Brown. It is not acceptable to me and certainly not acceptable 
to this Committee. We authorized the new facility almost 10 
years ago, and I think our veterans deserve better than that.
    Under the leadership of Ms. Brown, there was a meeting this 
morning of all the stakeholders to try to work out the 
location, price, and the memorandum of understandings that are 
necessary. I met with the group from Shands and the VA to try 
to further that process along. Ms. Brown and I will be talking 
to the new Secretary of the Department of Veterans Affairs to 
try to further move the process.
    We have this hearing at a time of enormous optimism and 
promise for new direction. We do have a new Administration and 
a new Secretary of VA. While serving in Vietnam and as Army 
Chief of Staff, Secretary Shinseki was always known as a 
``soldier's soldier''--always caring for his people. I am now 
calling him a ``veteran's veteran'' because he understands what 
is going on and I believe that by working with this Committee, 
we will make further strides in the quality of care for all of 
our veterans.
    We are looking forward to hearing from all of the witnesses 
today. We also will have an open session to hear about some 
general issues that any of you would like to bring to our 
attention. We will go by our normal procedure, which is to 
recognize our Ranking Member, Mr. Buyer, and then we will hear 
from both Ms. Brown and Mr. Crenshaw.
    Mr. Buyer.
    [The prepared statement of Chairman Filner appears on p. 
44.]

             OPENING STATEMENT OF HON. STEVE BUYER

    Mr. Buyer. By way of a parliamentary inquiry, this is a 
formal Congressional hearing, even though we are in 
Jacksonville, is that not correct?
    The Chairman. Yes, sir.
    Mr. Buyer. So witnesses, there has been an exchange of 
witness lists, and witnesses have been vetted, as I understand, 
by both staffs; is that not correct, Mr. Chairman?
    The Chairman. Yes, sir.
    Mr. Buyer. I am not aware of procedures within the 
protocols of Congress for there to be an open microphone other 
than individuals of whom are named witnesses. Are you aware of 
such procedures?
    The Chairman. We felt that given the fact that this is a 
public hearing, the veterans who are interested in what is 
going on, would have a chance after the formal hearing is over 
to express their opinions. We can adjourn the formal hearing 
before we begin the open forum, but we want to hear from the 
public. We will have the hearing, and then we will conclude it 
and have the open microphone session.
    Mr. Buyer. Okay. Thank you very much. Appreciate your 
answers to the inquiry. Thank you.
    Mr. Chairman, it is a pleasure to be here.
    And ladies and gentlemen, Jacksonville, my association with 
the south and the southeast is, my family is from Charleston, 
South Carolina. Even though my father was from Indiana, he went 
to The Citadel. My brother went to The Citadel. I didn't have a 
choice in life. I am a graduate of The Citadel, and so I have a 
lot of friends and a lot of relatives in this part of the 
country. And when the three of us, Corinne and the Chairman and 
I, came to Congress together, we also were joined by Tilly 
Fowler. And you know it was pretty easy to take Tilly Fowler. 
She is an extraordinary lady with a lot of great attributes, 
and so it is a pleasure for me to be here in Jacksonville, not 
only the hometown of Corinne Brown and Ander Crenshaw, but also 
of Tilly, and it is a pleasure to serve with both of these 
Representatives from your hometown.
    Corinne is an interesting personality. She is very 
pugnacious. So when she gets hold of an issue, she just doesn't 
let go, and right or wrong, she is not going to let go. And I 
give her much credit in our efforts 3 years ago relative to the 
Orlando Hospital, along with John Mica and Ander and others, 
but at the final meetings, Corinne was there in the room, and 
her voice was heard.
    I also want to extend my pleasure for the leadership of 
Ander Crenshaw. The synergies that you have here, that you get 
to take advantage of is, you have, in Florida, you must have 
five or six Members on the authorizing Committee of VA. And 
then Ander Crenshaw and Bill Young, and you have some others 
here on the Appropriations Committee. And so it is really--I 
just want to take a moment to thank Ander for what he does for 
you. It is one thing to get it authorized, and then you have to 
get it funded.
    So when you think about the new, Jacksonville National 
Cemetery, Ander Crenshaw was there to be able to deliver the 
$29 million to make this a reality, and now you have this 525-
acre cemetery which has now been opened for burial, and so I 
want to thank Ander for his efforts.
    I also want to thank him for--I wish all Members of 
Congress would do this, your annual Veterans Recognition 
Ceremony, and you had over 2,000 veterans go through that. So I 
want to thank you for that.
    I also want to extend a warm welcome to everyone here in 
attendance. Our Deputy Ranking Member, Cliff Stearns, he could 
not be here with us today but wanted to thank the staff and 
others who are here. He was not able to participate. Cliff is a 
long-standing leader on the Committee, and he is a steadfast 
advocate for veterans. He has also actively called for a new 
Regional health care Center in Marion County and expansion of 
the VA hospital in Gainesville. For years he has been working 
on these projects, and we have now broken ground, and I know he 
looks forward to seeing both these projects come to fruition.
    I also appreciate we are having this hearing to discuss how 
the VA is moving forward to expand services and meet the needs 
of veterans who live here in the Jacksonville area. New 
technologies make it possible to provide more diagnostic, 
specialty, and surgery services in an outpatient setting rather 
than a hospital. To maximize the use of these advances and 
bring a broad array of specialized services closer to where 
veterans live, the VA is moving from the clinics to the new 
Ambulatory Care Centers.
    And so I want to reference we have a joint ambulatory care; 
it is not necessarily called the center, but it is kind of a 
model that we are now moving off of in Pensacola, and I want to 
credit Mr. Jeff Miller for his leadership in assisting the VA 
to do this. And then the Chairman went down to, they call it 
deep Texas, down at Harlingen, and I also went to deep Texas. 
So the two of us went at two different times, and we were able 
to then come together and work with the VA in the introduction 
of these Ambulatory Care Centers, and so we are trying to 
create these synergies of excellence.
    And as you all know, the current Jacksonville, VA, clinic 
is located next to the University of Florida Health Science 
Center at Shands Hospital. The North Florida VA health care 
Center has a strong and meaningful affiliation with the 
University of Florida. And the VA expansion of the current site 
with the collaborative partnership could yield substantial 
benefits for veterans.
    I understand there is progress finally being made, and 
hopefully there is a way forward to build on these synergies 
that I was referring to that exist between the VA and a 
university.
    Sharing is not a new concept. VA has been sharing human 
capital for years and its affiliation among our Nation's 
teaching universities. In Charleston, South Carolina, there is 
a tremendous opportunity for the VA to replace its aging 
hospital with a mutually beneficial agreement to share 
facilities and integrate the delivery of veterans health care 
with the new Medical University South Carolina Hospital. This 
approach to shared facilities, which I take great pride in 
developing, is now being referred to as the Charleston model 
within the VA.
    This is a model that can be replicated and changed, 
depending upon the availability of services in a particular 
environment. So I want to thank the Chairman in his efforts, as 
we look at different communities, how do we build up these 
synergies without being multiplicious or duplicative.
    Because I truly believe that collaboration, whether it is 
between the VA, the U.S. Department of Defense, medical 
affiliates, State partnerships, or other private sector 
entities, it is a powerful, powerful tool for the VA to 
leverage to ensure that our veterans have the greatest access 
to the most advanced medicine and medical technology.
    As we look at the future development to VA, it is also 
vital that the VA establish strategic and long-term plans for 
energy sustainability, especially here in the Sunshine State. 
The VA must consider the use of a solar energy to power the VA 
health care facilities. I am very pleased with the new 
Secretary. The VA is planning to fund at least four feasibility 
studies for solar voltaic in its medical facilities, including 
four sites near the State of Florida. It will include Orlando, 
Bay Pines, Tampa, and Miami.
    In closing, I would like to thank all of our witnesses for 
appearing before our Committee today. Again, on behalf of Cliff 
Stearns, I want to recognize Stan Jordan, retired Army colonel 
and member of the Duval County School Board. Also, Colonel 
Jordan was a former member of the Florida House of 
Representatives and Chairman of the Florida's House Committee 
on Military and Veterans' Affairs.
    I would also like to thank Dan Hughes, Chairman of the 
Jacksonville National Cemetery Advisory Committee, for being 
with us here today and for his volunteer service on our 
colleague John Mica's Veterans Advisory Committee. It is 
important we listen to all these views, and I thank the 
Chairman for his time.
    [The prepared statement of Congressman Buyer appears on
p. 44.]
    The Chairman. Thank you, Mr. Buyer.
    As I said, we are here at the invitation or insistence of 
Ms. Brown.
    Ms. Brown, please proceed--let us know what is on your 
mind.
    Ms. Brown of Florida. Thank you, Mr. Chairman, and before I 
begin, I would like to yield 1 minute, without objection, to 
Dr. Wallace, who is President of Florida's Community College 
but soon to be the Florida State College of Jacksonville to 
give greetings to the Committee and the audience, the VA.
    The Chairman. Please.

   STATEMENT OF STEVEN WALLACE, PRESIDENT, FLORIDA COMMUNITY 
                COLLEGE AT JACKSONVILLE, FLORIDA

    Mr. Wallace. Thank you, Congresswoman. On behalf of Florida 
Community College, soon to be Florida State College, it is our 
honor to welcome you here today.
    Chairman Filner, Congressman Buyer, our two famous favorite 
Members of Congress, Congresswoman Brown and Congressman 
Crenshaw, it is always a pleasure to have you in our 
facilities.
    I want to make just a note because many people don't know 
this and it is a point of great pride, but this is a perfect 
venue for your hearing today. Of the 1,600 community colleges 
in America, Florida Community College is proud to have the 
largest veterans program in the country, and we will continue 
to support our active-duty military and veterans in wondrous 
new ways.
    We recently hired retired Rear Admiral Jim Stevenson to 
lead our Military Education Institute, and we are expanding our 
services for servicemembers and veterans every day.
    And so we welcome you here, and we certainly appreciate 
your service to our veterans.
    The Chairman. I just want to thank you again for having the 
hearing here today. I would like you to comment, if you will, 
on the new GI Bill for the 21st century. You all know how 
important the GI Bill was after World War II. I am a 
beneficiary of it. My Dad came back from World War II and was 
able to get some education and buy a house for the first time 
in our family's history.
    Unfortunately, those benefits have declined in value over 
the years.
    What we wanted to do for the new veterans is to try to pay 
for the full cost of college, plus a stipend. We also changed 
the housing loan program so that it is more up-to-date and 
accessible.
    I would like to know if you are going to be able to handle 
the increased number of veterans, and if you are satisfied with 
the formulas? Are you aware of the formulas that we will pay 
the tuition, and how is that going to work out for the college?
    Mr. Wallace. Thank you for that question, Mr. Chairman.
    The Chairman. I didn't mean to surprise you, but I think it 
is important for your institution to be aware and prepared for 
the veterans coming home. The servicemembers coming back can 
assign their benefits in the future to their spouse or their 
children.
    Mr. Wallace. Right. Thank you, Mr. Chairman.
    We are paying a tremendous amount of attention to this. We 
see it as a phenomenal opportunity to elevate our assistance to 
veterans; in some cases, active-duty military, spouses, family 
members. We have a task force that is going through a massive 
redesign of our already very, very substantial and significant 
service. We are expecting to be inundated with veterans taking 
advantage of the new benefits, spouses, family members, and we 
will be fully in position to receive them in August when we 
expect that flow to begin, but we could not possibly be taking 
this opportunity and this responsibility more seriously.
    The Chairman. Is the tuition reimbursement going to meet 
your actual expenses?
    Mr. Wallace. Yes, Mr. Chairman, that won't be a problem. In 
Florida public education, we have among the lowest tuition 
rates in America. So it is well covered.
    The Chairman. What you take pride in, and I want to say 
this to Mr. Crenshaw and also to Ms. Brown, may cause a problem 
in that the formula that was passed. The tuition grant will be 
based on the highest, public university in the State. This will 
mean that if somebody wants to go to a higher tuition school 
that because your tuition at State schools is subsidized, we 
may not meet the real expenses of lower tuition States. In 
California, Florida, or other States where there is a tradition 
of real support for public colleges, that support is going to 
work against the stipend. We are not going to try and change it 
for this year because we want to get it started, but please 
keep us informed. You said you had other programs and I suspect 
they cost more than the tuition is actually going to cover.
    Mr. Wallace. Yes, sir.
    The Chairman. We need to know how the new GI Bill affects 
all of the States because we may want to make some changes next 
year. Keep in touch with us please.
    Mr. Wallace. We will do so.
    The Chairman. It is going to be an exciting time.
    Ms. Brown, I am sorry to interrupt you.

            OPENING STATEMENT OF HON. CORRINE BROWN

    Ms. Brown of Florida. No, no, that is a very good question, 
and I want to also give greetings to Sandra, who has worked on 
veterans issues and is a member of the school board and a State 
legislator and for a long time worked very closely on getting 
the cemetery and other issues here in Jacksonville.
    And also with us today is Art Graham who is on the City 
Council, and I spoke to him last night about the VA hearing, 
and he is here today.
    So, thank you, Mr. Graham.
    First of all, let me thank the Chairman for holding this 
hearing. I know it is a tremendous sacrifice for people to take 
time from your district during this work period and to come 
here, and you know, you can extend the invitation, but there 
has to be a follow-up, and I want to thank him and Mr. Buyer 
and Mr. Crenshaw for coming here to this hearing today.
    And one of the things I like about being on the VA 
Committee, and I have been on there for 16 years, I really do 
believe it is one team, one fight, and we are here for 
veterans, and we work together, and it is not any of this 
Democratic or Republican thing. It is just all for the veterans 
on this particular Committee. And I want to thank the Chairman 
for the largest increase in the health care budget in the 
history of the Department of Veterans Affairs, and I am just 
really pleased that you are here and when we leave 
Jacksonville; we are going to go down to Orlando and take a 
look at the issues down there also.
    I am pleased that all of the witnesses are here to discuss 
the infrastructure of the veterans in Jacksonville.
    One of the things that, you know, we have more and more 
veterans moving to Jacksonville because of our beautiful 
climate and the cost of living, and that kind of works against 
us in the sense that we are growing, so we need to make sure 
that the VA keeps up with the growth of our veterans.
    Many times veterans come to me, and they are concerned 
about how long they have to wait and the kinds of services they 
are getting, and basically, the services are good, but with the 
growth, we have to make sure that we put the infrastructure in 
place to take care of those needs. And I think we have a good 
team here with the VA and the regional people in VA, and they 
are going to work with us to make sure that it happens.
    I want to mention something about that cemetery because I 
worked on the Committee to get it authorized, and you have to 
get it authorized before you get it funded. And one of the 
things that was really interesting is that it is a form, and so 
we had to make sure that we got the people in the Miami area 
taking care because they had over a million veterans in that 
area. We had to get the expansion of the existing facilities in 
Bushnell, and then Jacksonville was in line, and so we had to 
do all those things before we were eligible to have a cemetery 
in this area, so I was very happy to do that.
    I want to close with a statement of the first President of 
the United States, George Washington: ``The willingness with 
which our young people are likely to serve in any war, no 
matter how justified, shall be directly proportional as to how 
they perceive the veterans of earlier wars are treated and 
appreciated by their country.''
    The people here in Florida are the best people, and I am 
pleased to have this hearing with my constituents and the VA to 
hear their views and to listen to how we can work together to 
improve the services for the veterans here in the area and, of 
course, in the State of Florida and really in the country. So 
``one team, one fight'' really does exemplify the Committee.
    The Chairman. Thank you, Ms. Brown.
    We stopped at a nearby clinic on the way over here, and the 
director said there is a waiting list of 400 veterans. We have 
a lot of work to do.
    Mr. Crenshaw, thank you for joining us today.

            OPENING STATEMENT OF HON. ANDER CRENSHAW

    Mr. Crenshaw. Thank you, Mr. Chairman.
    Before I say anything, I want to--I listened to Ranking 
Member Buyer mention Tilly Fowler. I just want to make people 
aware of the fact that tonight, at 7:00 p.m., there is going to 
be a dedication of a memorial to former Representative Tilly 
Fowler, and I am sure that if you don't know about it, they 
would love to have you be there. They have a memorial that has 
been in the newspaper, and I think it is down on the river 
right by the YMCA. And any of the Members here or certainly 
anybody in the audience, Tilly was a great lady, as the Ranking 
Member pointed out, and they have all served together. So it is 
fitting tonight that this memorial is going to be dedicated. I 
just want to make everyone aware of that.
    Mr. Buyer. I hate to interrupt, but all of us know, that 
worked with Tilly, and I want the community to know you know 
her and you have your own perceptions of her. With regard to 
helping our country, her leadership was extraordinary. The 
Navy, in order to have a two-port blue-water Navy, she was such 
an extraordinary advocate that, when the JFK is replaced, and 
now they are trying to find a home port for the Herbert Walker 
Bush nuclear carrier. These facilities have to be prepared to 
receive a new carrier, and there is so much work in 
infrastructure investment that must be done in order for that 
to happen. Tilly Fowler started working on this issue in the 
mid-nineties. So long before; it is a 15-year, 20-year tale to 
prepare for something like this, and so now when you have the 
Secretary of Defense make this recent announcement that to 
bring a nuclear class carrier here to Mayport, I would like the 
community to know this is a big deal. And it now rests upon the 
shoulders of Ander Crenshaw, and so it is going to take a $100 
million at the first baseline. It could be a lot more before we 
are done to prepare for that because we have to have a backup 
maintenance facility be able to handle something like this.
    But I just want you to know, I give a lot of credit to you 
and Ander, but Tilly laid a real base and foundation there for 
the community, and I know a lot of people have made a 
tremendous amount of effort. I yield back.
    Mr. Crenshaw. Thank you very much, but I just simply want 
to add my words of welcome to the Chairman, the Ranking Member 
for being here today. As some of you all understand, it is a 
pretty big deal to have those folks travel to come to a field 
hearing like this.
    I certainly want to add my words of welcome. I want to 
thank my colleague, Congresswoman Brown, for proposing to have 
this and encouraging the Chairman and the Ranking Member to 
show up and be here.
    As she said, you know, when it comes to issues about 
veterans, it is ``one team, one fight,'' and I think 
particularly with Corinne and I, when it affects northeast 
Florida in particular, affects veterans, it is ``one team, one 
fight,'' and I am proud to work with her to do the things we 
have been able to do.
    I certainly want to thank the distinguished panel that is 
going to be here to testify. We appreciate you taking the time. 
As the Chairman mentioned, I am not a Member of the Veterans' 
Affairs Committee, but I am a Member of the Appropriations 
Committee. And the main work that I do is on the Subcommittee 
called Military Construction and Veterans Affairs. And as 
Ranking Member Buyer mentioned, the $500 million that is going 
to be needed to upgrade Mayport to make it capable of home 
porting a nuclear carrier will go through my Subcommittee. And 
I am going to work as hard as I can. This year will be a $100 
million to begin the dredging and begin some of the work 
upgrades, but I will continue to work on that.
    But in particular as it relates to veterans, all the 
funding that has been mentioned comes through our Subcommittee, 
and I was proud last year to be a cosponsor of that legislation 
that led to the largest increase in veterans funding in the 
history of our country.
    And so I will continue to work with my colleague, Corinne 
Brown, certainly with the Chairman and the Ranking Member on 
the authorizing side. We have a unique opportunity here in 
Jacksonville because we have Cliff Stearns and Congresswoman 
Brown that sit on the authorizing Committee, and then I sit on 
the Appropriations Committee. So we can work together, which I 
think is a great advantage for our northeast Florida community, 
and so we will continue to work together.
    And finally, just let me say, being in the presence of all 
you veterans because I do so much of the work in Washington 
related to the military, related to veterans, and so when I 
travel, whether I am in Jacksonville or traveling to some far-
off part of the world to oversee our military bases, some 
40,000 square miles, worth about half a trillion dollars, or 
meet with veterans groups around, I am always reminded, I don't 
think I need to remind you all, that the greatness of America 
really has been drawn from the blood and the sacrifice of the 
people who have gone before us as well as the people that 
defend us today.
    So I thank you all for being here.
    Thank you, Mr. Chairman for allowing me to be part of this. 
I look forward to hearing from you all, so that when we go back 
to Washington and begin to write the budget for the VA, 
Veterans Affairs, for 2010, I will have some firsthand 
knowledge.
    Maybe just in parting, just let me say, I may have to leave 
a little early today. I have my BlackBerry, and any minute now, 
I am going to become a grandfather for the second time. My 
daughter is in the hospital now, and if I slip out a little bit 
early, that is to welcome my newest granddaughter into the 
world today.
    But Mr. Chairman, thank you for inviting me to be here 
today.
    The Chairman. Thank you.
    Give me a note to that effect.
    Our first witness will be Herschel Allen, who is the Duval 
County Veteran Service Officer, Veteran Service Officer 
Supervisor for the City of Jacksonville.
    Thank you for being here today, and we are looking forward 
to your testimony. Your written statement will be made a part 
of the record.
    You are recognized. Thank you for being here.

  STATEMENT OF GUNNERY SERGEANT HERSCHEL ALLEN, USMC (RET.), 
 DUVAL COUNTY VETERAN SERVICE OFFICER/VETERAN SERVICE OFFICER 
    SUPERVISOR, CITY OF JACKSONVILLE, FL, MILITARY AFFAIRS, 
            VETERANS AND DISABLED SERVICES DIVISION

    Sergeant Allen. Thank you, Mr. Chairman, and Congressmen.
    I have had about 3 days to prepare for this since I was 
told I was to testify, but that is okay. I enjoy talking about 
it and letting my peace be known.
    I was born and raised here in Jacksonville, graduated in 
1960, enrolled in the Marine Corps, was stationed all over the 
world; of course, the tour in Vietnam where I was awarded the 
combat action ribbon, among other awards. So I am well aware of 
the current crisis for veterans and what they went through, are 
going through, and will go through in the future, especially 
the many problems that change people.
    My present duty, I have been the supervisor of the Duval 
County, City of Jacksonville, Veteran Services Division for 15 
years.
    I guess the Committee is probably well aware of it, maybe 
the members of the audience are not, but the clinic here in 
Jacksonville, the caseload, just the first quarter of this 
year, 15,423 leads. The pharmacy has seen over 25,000. The 
teams have gone from two teams to now they are looking for a 
fourth team. Each doctor has over 4,400 patients, but the cost 
per patient remains low as compared to the private sector, and 
the confidence and the ability of people who visit it is very 
high. Through the years, they have done a superb job with the 
resources they have.
    Myself, 15 years ago, I would not go to the VA. Now that is 
my choice. It is better actually. I can track here or with 
Aetna. I prefer the VA. They are very good, especially on 
preventive maintenance and the medicine. They want to check you 
out and find out what is wrong with you before it happens.
    The location, however, is not good at all, not acceptable. 
That area is very congested with the Shands facility all around 
it. The parking is ridiculous. They do try to have a little 
cart thing back and forth. Some people, especially the 
disabled, are not going to be able to climb into those little 
golf carts.
    It is a high-crime area. I pulled up, on the City of 
Jacksonville Web site, in the last 6 months in that area there 
have been 15 assault and batteries; 22 burglaries; 7 robberies; 
46 thefts; 10 vehicle thefts; 7 vandalisms. The people who work 
there don't like being there either.
    There is no central location for that clinic. The main 
clinic is there. The eye clinic is over in the twin towers. The 
Surgi-Center is way off of JTB. The VA is now looking for some 
more leased land to put another team. Of course, those folks 
would have to go back to the main clinic if they had to have 
any prescriptions filled.
    Distance, 45 minutes was VA's standard. They want all 
veterans to be within 45 minutes of an inpatient facility. If 
you live right here right now, to go to a VA facility in either 
Gainesville, unless you break the speed limit, you are not 
going to make it any less than 1 hour, 15 minutes/20 minutes. 
It is impossible. So we don't fall within that standard. Of 
course, Orlando has got the other hospital. Figure that out.
    Transportation to the medical centers, the Disabled 
American Veterans (DAV) does run vans. However, the disabled 
have a very hard time.
    The size of the proposed clinic they have now, even if it 
was built today, would be inadequate. We are receiving veterans 
in this county. About 210 DD-214s per month come into my 
office, which means those are folks the VA doesn't know about. 
The VA only counts members or those that they are giving 
benefits to, like 95,000. There are over 177,000 here and going 
up. The clinic that they have proposed now is not going to be 
adequate.
    The concerns I hear from some of the veterans that I see on 
a daily basis are: The clinic is too spread out. There is no 
hospital close by. It is difficult to get to the hospital. 
There is a long wait time here at the clinic. I have served 
more than 10 years since it was proposed, and what is going to 
happen this summer when category 8s are allowed into the 
medical system.
    The veterans' interests are not being met. The largest city 
in the United States. We have land available around this county 
to put a larger facility, rather than smack dab downtown where 
it should not be.
    Too much rhetoric, not enough action. You people have the 
authority and the power to make it right and change it, and we 
would hope and pray that you guys do the right thing.
    Thank you very much.
    [The prepared statement of Gunnery Sergeant Allen appears 
on p. 45.]
    The Chairman. Sergeant Allen, just a chance to ask some 
questions, if you don't mind.
    Sergeant Allen. I don't mind at all.
    The Chairman. Don't turn your back on this Committee.
    Ms. Brown.
    Ms. Brown of Florida. I have a question. Because, 
obviously, you work for the City of Jacksonville, you know that 
the city has been working with Shands and Gainesville to come 
up with the location for this clinic, and you mentioned that 
there was a hospital in Gainesville--I mean, in Orlando. We 
have been working on that for 25 years, and it is not in the 
ground yet. So it takes forever for the VA to come up with a 
project and go through all of the procedures.
    Now this project that we have is almost ready to go, and 
the City of Jacksonville helped with developing the land. It 
was a partnership between Shands, Gainesville, University of 
Florida, and the VA. So I don't understand, and there is a need 
for these veterans that live in this community right here and 
now. So I don't understand what we are talking about. A 
different location, then you are talking about another 20 
years. It takes the VA forever to build a facility.
    Sergeant Allen. About 4 years ago, I had the people from 
the clinic, from Gainesville, and Central Office in Washington, 
down at a 13-acre site on the west side, beautiful wooded 
location, was perfect, transportation, sewer, electric, 
everything together. Central Office, Washington, says great. 
Two weeks later, a phone call says, we can't do it. It needs to 
be kept downtown.
    Ms. Brown of Florida. Yes, I know, I want it downtown 
because that is where a lot of veterans live. I don't know 
anything about the facility on the Westside. I didn't make the 
decision on the location. The VA made the decision on the 
location, and it is supposed to have been a partnership. I want 
to hear your comments, but the City of Jacksonville, the City 
of Jacksonville was involved in this negotiation.
    Sergeant Allen. I am not speaking for the City of 
Jacksonville. I am speaking for veterans.
    Ms. Brown of Florida. I hear what you are saying. Do you 
know how long it takes for a project to be completed? The 
project in Orlando, the hospital, is a 25-year project. I have 
been in Congress for 17 years, and it still does not exist, and 
it will be another 3 to 5 years for that hospital.
    Sergeant Allen. Whose fault is that?
    Ms. Brown of Florida. You tell me.
    Sergeant Allen. We can't make laws, pass legislation and 
create our own appropriations. That is you guys, not us. You 
wanted our input, and that is what it is.
    Ms. Brown of Florida. Let's be clear, the authorization is 
done. The appropriation is done. Maybe we can find out from the 
VA why it takes them so long. The money is there.
    Sergeant Allen. I don't know. I really don't. You wanted to 
know the concerns. I see veterans every day and on the weekends 
and evenings. I am letting you know what I have seen and what 
their concerns are. That is what you wanted, isn't that 
correct?
    Ms. Brown of Florida. That is still what I want, sir, but 
what I am saying is, as far as the facility is concerned, I had 
nothing to do with the decision----
    Sergeant Allen. I didn't say you did.
    Ms. Brown of Florida. I did not, but you said you showed 
them a facility on the Westside that was----
    Sergeant Allen. Property, not a facility.
    Ms. Brown of Florida. Well, it was the same thing as the 
cemetery. People wanted it in a different place, and the VA 
made the decision based on whatever criteria they make off the 
needs and how many veterans are in the area. And the 
transportation and all of those factors are considered.
    Sergeant Allen. Ten years from now, it needs to expand the 
facility downtown.
    Ms. Brown of Florida. Ten years from now, we can go with a 
plan B, but it will be 10 years before we get anything up. That 
is the problem. We need design build. We need to expedite 
projects.
    The Chairman. Okay.
    Thank you, Ms. Brown.
    Mr. Crenshaw, any questions?
    Mr. Buyer.
    Mr. Buyer. Gunny.
    Sergeant Allen. Sir, can I go back now? Are you going to 
ask some questions?
    Mr. Buyer. I have never seen a gunny turn his back on 
anything. So you didn't do that. What you did is spoke like a 
gunny. You stood up, you had what you had to say, and by God, 
that is what it is. We are going to move on.
    I don't know what it is about the Marine Corps. They get 
you guys, and you all come out the same. There is something 
about a gunny sergeant, all the ranks in the military, and I am 
a Colonel, but there is something about--when I am around a 
gunny, they just make me nervous.
    I think it goes all the way back, I was 17-years-old, at 
Parris Island, and the gunny sergeant made me pull fire watch. 
And I didn't understand why I had to do fire watch, you know, 
from 2:00 a.m. to 4:00 a.m., and it was my turn. I didn't 
understand, and in the morning, before we went to formation, I 
went over, and I waited for the gunny to come out of his room. 
And I saw the gunny, and said, gunny, this thing about fire 
watch, I have an idea about how we can improve that system.
    Sergeant Allen. Is this a true story?
    Mr. Buyer. This is a true story. I am an ideas guy, always 
have been, but I want you to know what the gunny did. I pulled 
fire watch for 2 weeks, every night, and I learned what fire 
watch was about. It wasn't about watching for fire, you know, 
but I tell you what, I just love gunnies so I love your 
testimony, and I love your candor. And that is what we love 
about gunny sergeants; it is your candor.
    We have on the Committee with us a master sergeant, United 
States Marine Corps, veteran of Iraq, who lost the lower part 
of his leg. He remains on active duty. He lost that lower part 
of his leg and then went back into Iraq looking for the son of 
a bitch.
    Sergeant Allen. That is right.
    Mr. Buyer. Let me ask, what I love about your job is that 
you work with veterans every day, and you don't have an 8-to-5 
job because it is wherever they see you. You can be on the 
street, you can be in the store, it can be coming out of 
church, and they are going to grab you, because everybody knows 
you. You are their advocate.
    So with regard to, because you touch them every day, what 
are your recommendations to us with regard to how we get--how 
are we doing on getting information out there with regard to 
benefits, and tell me a little bit about your IT systems, on 
how well you are being financed with the updated equipment.
    Sergeant Allen. Well, I will answer the second one first. 
When I got into this job in 1994, all the claims, everything, 
was done by hand. A lot of the benefits had a lot of mistakes. 
I got with an IT person, and we developed a system. It is all 
done electronically, and people come down to our office, sit 
down, they don't fill out any forms. We do it on a computer, 
and we are the only office in the world that files 
electronically. They sign a signature pad, and boom, it is 
there. But that was all funded through the city, just the city, 
period.
    Mr. Buyer. So when you do that electronic format, are you 
able to send that directly to the VA?
    Sergeant Allen. Yes, sir. If it is lost in the building, we 
go back to the date of claim, of when they got it, it is 
fantastic. We have been doing that for about 10 years now. 
Since they moved the pensions to our Pension Management Center 
in Philadelphia, I am trying to get with those folks so we can 
file pensions the same way. But it is all funded by the City of 
Jacksonville. Of course, most other counties in Florida and 
some other States found out about it and copied that and were 
able to use it.
    As far as getting the word out, I don't think the VA does a 
very good job. The way the bill before Congress right now, I 
think it is called Veterans Outreach of 2007 or something, 
where they would really help fund the idea already, assisted 
living facilities, veterans service organizations, different 
groups and communities, to let people know what is available.
    Matter of fact, this morning, a Korean and Vietnam Wars 
veteran who worked for the city for 30 years. I see him in the 
morning when I get in between 5:30, quarter of 6:00. By about 
6:00, I step out and buy a cup of coffee. He walks by. His name 
is Jerry. By the summer, he starts growing his white beard, and 
by December, he looks just like Santa Claus. I said, Jerry, 
weren't you in the military? He said, yeah. I said, did you 
retire? He said, I guess so, they gave me some papers, told me 
don't come back. I said, yeah, you are retired. I said you get 
anything from VA? No. I said, what kind of disabilities do you 
have? He named off just about every presumptive disability that 
Agent Orange has. I said, why don't you file a claim with the 
VA? I didn't know I could. He worked for the city for 30 years. 
Our office is downstairs. I go out just, people like that----
    Mr. Buyer. What more can we do with regard to getting 
information out on the availability of benefits.
    Sergeant Allen. I would like to see each major city that 
has a newspaper at least once a week, out on Sundays, has some 
kind of veterans issue. For a while, I was going on channel 2--
--
    Mr. Buyer. A service announcement?
    Sergeant Allen. I don't even watch that myself, but those 
kind of things, anything they can do.
    Congressman Crenshaw, I know I have seen some of the things 
he has put out periodically, tries to know about some of these 
issues, not just Federal, but also State and local benefits out 
there for veterans.
    But I don't know. I don't know the answer. I keep trying. 
Every time I see somebody, are you a veteran, you look like a 
veteran; I tell everybody that works for me, church groups, 
organization, whatever you belong to, try to get the word out.
    Mr. Buyer. Gunny, I want to thank you for your leadership. 
Please extend my appreciation to the City of Jacksonville and 
the Unigov to finance that, because what you are doing here is 
not happening and it is not replicated by the country. This 
electronic format is extremely helpful to the VA. So thank you 
for your leadership. I yield back.
    The Chairman. Thank you. We thank you for your testimony. 
More importantly, we thank you for your work every day with 
veterans, and we will try to give you some more help in that 
outreach. We appreciate your testimony.
    Sergeant Allen. Thank you. We appreciate what you have 
done. We just, please, do more if you can, please.
    The Chairman. Okay, thank you. This concludes the first 
panel. The next panel is comprised of three people. If you will 
all come forward for panel two.
    Hallie Williams-Bey is the Chairman of the Northeast 
Florida Veterans Council. Guy Diffenbaugh is the commander of 
the Jacksonville Chapter 1 Disabled American Veterans. Sergeant 
Tippins is the president of Chapter 29 of the Montford Point 
Marine Association.
    Ms. Brown of Florida. Mr. Chairman, I just want to announce 
that Ms. Griffiths, ADR Griffiths, is here from Senator 
Martinez's office.
    The Chairman. Thank you for being here. We thank the 
Senator for his interest.
    Well, we will recognize each of you for 5 minutes, and then 
we will open it up for questions.

STATEMENTS OF HALLIE WILLIAMS-BEY, CHAIRMAN, NORTHEAST FLORIDA 
VETERANS COUNCIL, JACKSONVILLE, FL; GUY DIFFENBAUGH, COMMANDER, 
 JACKSONVILLE, FL, CHAPTER 1, DISABLED AMERICAN VETERANS; AND 
   MASTER SERGEANT JAMES H. TIPPINS, USMC (RET.), PRESIDENT, 
CHAPTER 29, JACKSONVILLE, FL, MONTFORD POINT MARINE ASSOCIATION

                STATEMENT OF HALLIE WILLIAMS-BEY

    Mr. Williams-Bey. My name is Hallie Williams-Bey.
    I am a Marine Corps Vietnam veteran staff sergeant.
    Ms. Brown of Florida. Can you pull that microphone closer 
to you, please?
    Mr. Williams-Bey. My name is Hallie Williams-Bey. I am 
former staff sergeant, who served in Vietnam from 1968-69 in 
the Marine Corps. I have been involved in many local veterans 
service organizations for about 27 years.
    As a military veteran, I have been going back and forth to 
my private physician for many years. In 2000, I found I had 
prostate cancer. I went to the local VA clinic, and was told it 
would take me 2 years to even see a doctor in the Lake City VA 
Clinic.
    During this time, I went to my private physician, and 
started the healing process with hormone treatments, seed 
implants and radiation treatments. By the time I went to my 
scheduled appointment at the VA in Lake City, they told me, 
there was no sign of cancer, and my disability went from 100 
percent to 10 percent.
    Since that I time, I have been very active helping other 
veterans and organizations. I am proud that we will have a VA 
clinic, as Congresswoman Brown stated, and can build in the 
current location now because we don't have a clinic at this 
time. The current VA clinic is overcrowded; there are many 
hours for waiting and if you miss an appointment, you might 
have to wait another 2 years to see a doctor.
    Jacksonville is a big place and there are a lot of places 
to build a new clinic, but we need to start somewhere. We can 
start with Shands/UNF and build on the current location and use 
their facility until we out-grow that space. We do not need to 
put off again, we need a clinic now. The veterans have 
experience in the ``hurry up and wait procedure'' while nothing 
ever happens.
    Like Congressman Buyer said, we know about ``fire watch'' 
and we are still doing fire watch right now. A lot of us are 
back in America from combat, but we are still missing from 
American decisions. We are missing from Washington, DC, agendas 
and nothing is happening to improve our service.
    We have too many civilians working for different programs 
every day, and they don't represent the veterans. We have more 
people in the VA clinic who are not veterans, and they have no 
sympathy for our veterans.
    Mr. Herschel Allen has helped many veterans with our 
benefits. He works for the City of Jacksonville, but he does 
more outside the City of Jacksonville for veterans. Once again, 
politics plays a way everything is done.
    My main concern here today is to represent different 
organizations to encourage the Committee to build a clinic now 
at its current location. We don't have time to wait 10, 15 to 
20 years. A lot of us won't be alive.
    Congresswoman Brown, I met her before when she was a State 
Representative, and I have known her for many years. She has 
encouraged me to participate with many veterans organizations 
and in my current position now as Chairman of the Northeast 
Florida Veterans Council.
    We both care about veterans issues and concerns, and if we 
don't represent them, who is going to represent them?
    Thank you.
    [The prepared statement of Mr. Williams-Bey appears on p. 
46.]
    The Chairman. Thank you, sir.
    Mr. Diffenbaugh.

                  STATEMENT OF GUY DIFFENBAUGH

    Mr. Diffenbaugh. Yes, sir.
    Mr. Chairman, Congresswoman Brown, Congressmen Crenshaw and 
Buyer.
    I am pleased to be here and honored to be here today 
speaking to you. I want to thank you, first of all, for the 
support on behalf of all our veterans and support for funding 
our programs.
    The DAV and other veterans service organizations previously 
have made you guys aware of the issues concerning veterans' 
appropriations, so I will not reiterate those issues and only 
go to the issues pertaining to the health care infrastructure 
here in Jacksonville, Florida.
    In preparing to come speak with you, I went to the VA and 
asked for data where I could present a good factual case to 
you. I was told I was not privy to that, and that it would be 
handled by the Veterans Integrated Service Network (VISN). So 
my data comes from my personal experience with my organization 
and other veterans organizations and from a little bit of 
research I did on my PC.
    I am in the VA health care system. I receive excellent 
care. I can't complain about that. I can tell you, though, that 
we are crowded here in Jacksonville, Florida, at our outpatient 
clinic. Excuse me, I have to kind of go by my statement because 
of the nature of my disability.
    We were supposed to have a new clinic operational by the 
fall of 2005. Increased size and some services currently only 
at the VA medical centers in Jacksonville and Lake City are 
supposed to be incorporated in the clinic, and I guess, 
according to that new model that y'all were speaking of, but 
our present clinic is not large enough to adequately support 
the veterans using it. Our parking situation extends for city 
blocks to include a dirt lot. I spoke yesterday with a veteran 
that had fallen because of a pothole in the parking lot. So it 
is really inadequate.
    An additional factor of concern is, and our organization 
has expressed this concern, allowing category 8 veterans into 
the health care system that it is not designed to handle. With 
the VA estimate of 1,300 veterans in the North Florida/South 
Georgia VA health care system alone, though 100,000 have signed 
up and are on the waiting list, we would have an unacceptable 
degradation of delivery of health care in Jacksonville, 
Florida.
    According to the Department of Veterans Affairs' annual 
report, dated 31 December 2008, Duval County has the fifth 
largest veteran population in the State and is the only county 
of significant veteran population density without a VA medical 
center in close proximity. We must travel one-plus hours to 
reach Lake City, one and a half hours to reach Gainesville. The 
DAV provides 15 passenger vans to transport to hospitals around 
the county. My chapter has purchased two of them, one for 
transport to Gainesville, one for transport to Lake City. Those 
vans are full 5 days a week, and there is a waiting list.
    Although Jacksonville may have the fifth largest 
concentration of veterans in Florida, I think it stands to 
reason that with the massive rate of deaths of World War II 
vets that have retired in South Florida and the fact that our 
area has the largest military presence, that this population 
will grow and we are the only significant population of 
veterans in the State that doesn't have a medical center.
    We need a full service medical center in our area. It is 
time to take action. We are already 4 years behind the 
announced opening date. As Congresswoman Brown said, in the 
summer of 2006, referring to the impasse, ``we need to work out 
the issues so this doesn't go on for years'' and ``another 
impasse over another VA project in the Orlando area delayed it 
for 25 years.''
    The Committee is well aware of the DAV's position on 
veterans' entitlements. On 24 February 2009, our National 
Commander addressed a Joint Congressional Hearing, at which I 
was present, and made you aware of these things, and the 
Committee was in agreement on the issues from advanced 
appropriation and entitlements. Since there is agreement, the 
only missing component is action. So on behalf of all veterans, 
I ask you to make a decision this year and put action behind 
it.
    [The prepared statement of Mr. Diffenbaugh appears on p. 
46.]
    The Chairman. Thank you, sir.
    Sergeant Tippins.

   STATEMENT OF MASTER SERGEANT JAMES H. TIPPINS, USMC (RET.)

    Sergeant Tippins. Yes, Chairman, Chairman Filner and 
Representatives Brown, Buyer, and Crenshaw.
    Welcome to Jacksonville. I am a patient at the Jacksonville 
facility. And you know, in my opinion, the staff do a good job 
based on the facilities and the amount of patients that they 
are dealing with. And you have to understand that the 
conditions are not conducive to the amount of patients because 
of lack of facilities, and we are in dire need of facilities, 
and I think everybody is aware of that.
    The problems that I personally encountered at the facility 
at the VA here in Jacksonville, I located from California back 
to Jacksonville, and it was obvious in the beginning that there 
is no real continuity in facilities from State to State. They 
change, and I guess that has a lot to do with area, location, 
and so forth. There is no continuity in the VA services.
    Here it is very difficult to get specialty care. I was, I 
am a prostate cancer survivor. I came here. There is no 
urologist on staff at the Gainesville hospital, so my PSA level 
went up to 29. So I am very thankful to be sitting here today 
because I had TRICARE for life and was able to go to Shands 
facility and get the treatment.
    And I talked to a lot of veterans that have this problem of 
getting into specialty clinics, and by the location of the 
hospital being an hour and a half, 2 hours away, transportation 
is difficult. And it is something that really there is a dire 
need to get a hospital in this location. And I am sure that you 
will work, are working hard to meet that challenge.
    I visited the Veterans of Foreign Wars 4761, American 
Legion Post 197, Montford Point Marines Chapter 29, to get the 
input from veterans at these organizations because of all of 
the problems. In summary, there is a lot of frustration for 
getting into the VA system because a lot of the clerks are 
insensitive to the needs of veterans, and the reason for their 
insensitivity, I am not sure, but they could be trained to be 
sensitive to the needs.
    I--that was the major problem. With any problem, there 
should be some type of solution, and I think, if the VA would 
work with the services during the transition period and make 
aware to the vets, to future vets, that these facilities are 
available, and their records are transferred, because getting 
the records is a big major problem. The records get lost. You 
have various claims. You can't prove them because there are no 
medical records. These things could be resolved in this time of 
technology if they would ensure doing your project during the 
transition period, that these records are available for the 
patient to be transferred to the VA facilities in the location.
    The emergency care necessary is almost nil in this area. 
There is no emergency facility. You have to go to Gainesville, 
and that is a problem.
    In closing, I would like to, from President Geeter, the 
Montford Point Marine Association, who met with Congresswoman 
Brown in Washington, and he would like for me to pass on his 
greetings. Thank you very much.
    [The prepared statement of Mr. Tippins appears on p. 47.]
    The Chairman. Thank you, sir.
    Thank you to all of you.
    Ms. Brown.
    Ms. Brown of Florida. Yes, sir.
    I first want to thank all three of you for your service and 
coming to make your testimony today.
    We have been working on the Committee to get a seamless 
transition between the military and the VA. Like you said, the 
records are there. They are available, and there is no reason 
why there should be a delay. I mean, it should be automatic; as 
soon as you leave the military, part of your transfer papers 
should be your VA papers. And so the Committee is working on 
that, and I want you to know that. We are also working to make 
sure that we move forward. We know that we are a very large 
area. There is a large military presence growing. We need a 
hospital, but we need a clinic right now, here and now, and not 
5 years or 10 years from now. So we will resolve this issue 
quickly.
    Mr. Chairman, thank you.
    The Chairman. Thank you.
    Mr. Crenshaw, do you have any questions?
    Mr. Buyer.
    Mr. Buyer. I want to thank you for your testimony.
    One of the questions I had is about public transportation. 
Can you tell me about the availability of public transportation 
in being able to get back and forth to the clinics and 
hospitals?
    Mr. Diffenbaugh. To where?
    Mr. Buyer. You tell me. You have your clinics, and you have 
your hospitals.
    Mr. Williams-Bey. The current place where the clinic is 
right now has many problems such as limited public 
transportation, limited parking for disabled veterans. The new 
clinic should be expanded to address these issues. The current 
off-site facility, such as the Salisbury Road clinic, has 
limited parking and no public transportation. On Valley Road, 
there is nothing out there. The eye doctor is in a building 
with Shands physicians, where there is limited parking and 
public transportation.
    So the public transportation is the main issue of getting 
the veterans to the clinic. If somehow the clinic stays where 
it is at now, public transportation is going to be our main 
issue.
    The current Shands employees are going to need training in 
understanding veterans issues and sensitivity to doctors, 
nurses and new surroundings.
    Sergeant Tippins. I think transportation to Gainesville and 
Lake City is the major issue. It is an hour and a half drive to 
those facilities.
    Ms. Brown of Florida. One hour and 15 minutes.
    Sergeant Tippins. Okay.
    Ms. Brown of Florida. But you are right. So the major 
transportation problem is that there is no hospital in this 
area, and so they have to go to Gainesville, or they have to go 
to Lake City. That is the major problem, and then the other one 
is, you mentioned there is no emergency care for the veterans 
in this area. I mean, we are one of the fifth busiest areas in 
the country, so this is something that we need to have the VA--
they are going to testify later and give us an update on what 
we are doing to solve some of these problems, but 
transportation, we have a very good bus system, even though we 
are one of the largest cities in the United States, but that 
transportation won't take you to Gainesville or Lake City.
    Mr. Buyer. All right. Thank you.
    Mr. Diffenbaugh. We are allowed to go to any hospital in 
the area and then the VA makes a decision as to whether you 
stay there or whether you go to Gainesville. So that is 
available. Personally, if I can do it, I will go to Gainesville 
because I can get to Gainesville and be seen before I am seen 
in an emergency room here in Jacksonville, Florida.
    Mr. Buyer. Two other issues I just want to touch on. One is 
you know back in 2003 when the Capital Asset Realignment for 
Enhanced Services (CARES) report came out and one of the 
recommendations was the reduction or downsizing at Lake City, 
Ander Crenshaw here took a real leadership role in working with 
the Secretary so that none of that downsizing had occurred. So 
I want you to know and remember that.
    The other point I would like to make is in your testimony, 
Mr. Diffenbaugh, you made reference to a concern that you have 
with regard to opening up the health system to all category 8s.
    Mr. Diffenbaugh. Yes.
    Mr. Buyer. I want to assure you that I am in total 
agreement that we cannot have any--you use the word 
degradation. I am in total agreement. We have to be able to--
the system has to be able to receive, and we are having some 
struggles, and that is why there is this incremental opening of 
the category 8s, and I have been one of the chief opponents--or 
actually advocates of the VA taking care of the core 
constituency, and I guess it is our military values. We place 
our disabled ahead of the line and we have a system of 
priorities within the VA, yet some want to advocate that, well, 
everybody should be treated the same. Well, then that is 
counter to our values and others that don't understand our 
military values can't figure out why we act like this, right? 
And so I just want to say to you, sir, let me thank you for 
that. That is a bold statement for you to say. It is bold 
because when you make a statement like this, people will attack 
you for it, and the people who will attack you for it don't 
understand the value system that we in the military share. It 
is our bond, it is our common bond.
    Mr. Diffenbaugh. Well, thank you.
    Ms. Brown of Florida. Mr. Buyer, would you yield for----
    Mr. Buyer. Yes, ma'am.
    Ms. Brown of Florida. I want to clarify something. The key 
to Lake City, is that it is a regional hospital, and it was 
ludicrous to close it because they served veterans from Georgia 
and Alabama, and that was one of the reasons. It just didn't 
serve--if you go into that VA hospital there you will find more 
people there from Georgia and other places.
    Mr. Buyer. I don't recall it as a closing. There was a 
reduction. They were going to be removing some important 
components of the hospital, and Ander was pretty persistent. I 
yield back.
    Ms. Brown of Florida. There was a team effort.
    Mr. Buyer. Yes, ma'am. I don't care who--I don't remember 
you coming to me. I do remember Ander coming to me.
    Mr. Diffenbaugh. Lake City also takes a lot of care of 
long-term patients that it will break your heart to see.
    Ms. Brown of Florida. I didn't talk to you. We worked 
together on it. I just want you to know that, and I want to 
point out it was a regional hospital. It didn't just serve 
Jacksonville because most of the patients here go to 
Gainesville to a large extent. They don't go to Lake City. They 
go to Gainesville.
    Mr. Diffenbaugh. The vans to Lake City are full though 
every day.
    The Chairman. Let me thank you for your testimony, and the 
DAV of course does an incredible job around the Nation with its 
transportation help. We thank the DAV for that, and we thank 
you and appreciate the personal stories that you have shared.
    I assume, Mr. Williams, you are a veteran of Vietnam?
    Mr. Williams-Bey. Yes, I am.
    The Chairman. You probably assume your cancer comes from 
exposure to Agent Orange.
    Mr. Williams-Bey. That is what I was told, yes.
    The Chairman. How many veterans in the audience served in 
Vietnam? I want to thank you all for your service and we 
apologize for the way we, as a society, treated you all when 
you came home. People who were opposed to that war, including 
myself, did not distinguish between the war and the warrior. We 
did not welcome you home, we did not give you the treatment 
that you deserved, or the care. With Agent Orange, especially 
the government denied and denied and denied that there was 
anything wrong. Then set up this whole system that states you 
have to have your boots on the ground at a certain place and 
prove that Agent Orange was sprayed. We have introduced 
legislation, which you may be aware of, that will cover all who 
were exposed to Agent Orange. I think the Vietnam veterans have 
fought the Agent Orange issue long enough.
    My motto has been if you were there, we should care. I have 
legislation that says we must honor all Agent Orange claims. 
You have been fighting this for decades and I think you 
suffered more from the fight against the bureaucracy than you 
did in your original combat. We need to end that fight for you 
all and grant those claims. We need to waive the requirement 
that your boots had to be on the ground to be compensated for 
exposure to Agent Orange. I don't care if you were in the blue 
waters off the coast, in the blue skies up above, Thailand, 
Laos, Cambodia, or Guam. You know where the trans-shipment 
places were in the States where the Agent Orange was shipped 
and, therefore, you had possible exposure. Why should you have 
to go through so much bureaucracy proving you were exposed? We 
know of enough anecdotal evidence. Our goal is to try to 
streamline the process.
    We have a backlog of over 800,000 disability claims in the 
system. I suspect a quarter of those or more are the Vietnam 
claims. That would get those claims off the books. We are 
working so you don't have that frustration that I heard in your 
voice. I have heard that frustration all around the country.
    Mr. Williams-Bey. I just want to add something. There is 
not a year that goes by, or a day that I am not proud to be a 
Vietnam veteran. All of us have some kind of problem or medical 
issues such as cancer, prostate, diabetes, loss of limbs, legs 
or other injuries. Sometimes we don't receive one cent from the 
VA, but we trust our private physicians.
    The Chairman. I understand your disability was reduced, 
which is criminal. We are going to try to honor you with what 
the Nation should have done.
    Mr. Williams-Bey. Thank you.
    The Chairman. Please let us know, and Corinne will keep in 
touch because we will need your support sometime on that, too.
    As I travel around the country, I am even more honored to 
be the Chairman of this Committee. It gives me a chance to meet 
people all over the Nation and hear their stories and it helps 
us understand our debt to you all. When I look at the placement 
of facilities, which is an issue almost everywhere, I have 
found that the system is not perfect. A guiding principle that 
I have sought, and it is not always apparent to those who use 
the facilities every day, is that when you have the synergy or 
the mutual help of a lot of different institutions, it helps 
for the care of the veteran.
    I was over at Shands today and at the clinic and I saw 
students from the university. When you have the university, the 
private hospital, and the VA hospital in one central location, 
plus public transportation, these things together allow for 
better care for the veteran. All of the institutions reinforce 
each other.
    I think this is a key element for quality health care 
delivery. If you put a facility where there are no other 
institutions around, you don't get that personal day-to-day 
kind of movement that I see in place all over the country. It 
really helps the veteran.
    I think that is a criterion that we ought to be looking at 
very closely. It sounded like you all agreed with that and just 
like Mr. Buyer referenced that public transportation is a key 
element here. You have to keep that in mind.
    Just in closing to this panel, I heard a lot of frustration 
in your voices as you tried to help us understand what you are 
experiencing. I hear that all over the Nation. Many people 
think that VA means ``veterans adversary.'' It should mean 
``veterans advocate.'' We are trying, with these hearings, to 
make that transformation. I think the new Secretary talks about 
a transformation of the VA, and this is one of the things he is 
talking about.
    The people who work for the VA, 99 percent of them, are 
there for a good reason. They are working hard every day. They 
don't always have the resources that they need, so they get 
frustrated. Some of the Agent Orange issues they hear every 
day. Instead of being empathetic they get hostile and tell you 
they don't want to deal with you. We need to reinvigorate the 
workforce, raise their morale, let them know their resources 
are going to be there so they can do their job, and have the 
confidence of the veteran of a system that is really 
responsive. Your testimony will help us. You are involved in 
organizations for the benefit of veterans and we thank you. We 
will try to respond to what you have said today.
    Thank you so much.
    Ms. Brown of Florida. Mr. Chairman, as the next panel comes 
up, Secretary Brown's motto used to be putting veterans first, 
and I think we need to continue to implement that.
    The Chairman. Thank you all. We will now have the third 
panel join us. We have Daniel Hughes, who is the Chairman of 
the Jacksonville National Cemetery Advisory Committee, and Stan 
Jordan is Duval County School Board member for the First 
District.
    We welcome you. I see your ranks are in front of you, 
Corporal Hughes and Colonel Jordan. I thought you were the 
Colonel.
    Corporal Hughes, please proceed.

  STATEMENTS OF CORPORAL DANIEL V. HUGHES, SR., USMC (RET.), 
    CHAIRMAN, JACKSONVILLE, FL, NATIONAL CEMETERY ADVISORY 
 COMMITTEE; AND COLONEL STAN JORDAN, USA (RET.), DUVAL COUNTY 
       SCHOOL BOARD MEMBER, DISTRICT 1, JACKSONVILLE, FL

    STATEMENT OF CORPORAL DANIEL V. HUGHES, SR., USMC (RET.)

    Corporal Hughes. Thank you. My name is Daniel V. Hughes, 
USMC (Ret.), 1 Wildwood Place, Palm Coast, Florida.
    I served on Congressman John Mica's Committee on Veterans' 
Affairs as a volunteer. I have been helping veterans for 38 
years. The issue of health care and facility management is of 
great importance and concern to our veterans and families.
    The Marine Corps has given me respect, honesty, integrity. 
This is the Code that I run my life by. Our servicemen and -
women and their families deserve the best we can give them for 
their sacrifices.
    For the record, I address health issues of great importance 
to our veterans and their families in my report.
    I want to thank the Committee and welcome you all to sunny 
Florida, but it is cloudy today. Please accept my thanks for 
allowing me to speak before you today.
    One of the biggest problems we are having at all our VA 
facilities is acquiring better doctors, staff to meet the 
demand. At this time, the system is struggling to care for our 
veterans. Our clinics and our hospitals do the best that they 
can with the budget they have to work with. That is not enough. 
Our veterans deserve better.
    Due to budget shortages, we leave ourselves open for 
mistakes which then result in lawsuits. To eliminate the above 
we must acquire the best of doctors, pay them well so that they 
will stay and give our veterans the service they deserve. We 
must also purchase the best medical equipment that is out in 
the market.
    Our terminally ill veterans must travel a long distance for 
care at our hospitals and clinics. A lot of these veterans 
depend on Disabled American Veterans, DAV, van or friends to 
transport them the distance to receive their care.
    We veterans that live in the northeast section of Florida 
must either travel to Gainesville, Orlando or Lake City for 
hospital care. If you are terminally ill, it makes for a very 
rough day. A new hospital located in the Jacksonville area is 
badly needed.
    I now want to talk about a very serious illness, a dreadful 
disease to our older veterans, and this is Alzheimer's. All of 
our nursing homes should have in its facility an Alzheimer's 
unit. It should be a lock-down unit along with specially 
trained volunteers and nurses. A lack of this service in our VA 
system has forced a lot of our veterans into private nursing 
homes. We are blessed at this time to have received a new 
nursing home at Gulfport Village with an Alzheimer's unit in 
it. We as veterans would like to thank you for this blessing. 
Those nursing homes without an Alzheimer's unit must be 
reassessed so as to incorporate such a unit to better serve our 
veterans with this terrible disease.
    At this present time, Tampa has a hundred on the waiting 
list to get into its Alzheimer's unit. That is awesome. I had 
to travel to Bay Pines with a veteran that had no one. Emory 
Bennett, who has no lock-down unit, could not accept him.
    My wife and I traveled 350 miles twice a month to visit 
that veteran. He served with Patton, World War II, an honored 
veteran. He passed away in Bay Pines.
    In summary, those of us that have served our country, past, 
present, ask our representatives serving on the prestigious 
Veterans' Affairs Committee to please continue to work in 
improving our health care needs. The system is good but it has 
some cracks in it.
    As veterans we continue to put our lives on the line for a 
just cause that is dear to our hearts, and that is freedom, the 
freedoms that have made this country great now and in the 
future.
    Many years ago a promise was made to our veterans. That 
promise must be kept. To this day, many veterans and their 
families have given the supreme sacrifice and received 
permanent traumatic injuries that last a lifetime.
    God bless our veterans and God bless our country.
    I want to add that most of our injuries coming in from 
Iraq, Afghanistan are very, very serious. Our clinic in Daytona 
Beach, where I am a disabled vet at, imagine, 800 a day walking 
through the door. No room to expand, no psychologist, no room 
for someone to come in with problems to sit down and get care. 
This must be addressed.
    I want to leave you with those thoughts. I want to thank 
you for your prestigious service, and I know that in serving--
my brother served 20 years in Congress and we are very close. I 
served as a volunteer for 20 years, and I want to say that the 
job you do is well appreciated out here but we have to continue 
to do more to take care of our veterans.
    Thank you.
    [The prepared statement of Corporal Hughes appears on p. 
48.]
    The Chairman. Thank you. Colonel Jordan.

          STATEMENT OF COLONEL STAN JORDAN, USA (RET.)

    Colonel Jordan. Thank you, Mr. Chairman and Members of the 
Committee. Welcome to the sunny State of Florida except for 
today.
    Congresswoman Brown opened up this session with a quote 
from George Washington, and, Mr. Chairman, you even alluded to 
a respect level for the military back during the Vietnam era. I 
bring you good news. I want to share with you some things that 
we can do that don't cost money because I am going to share 
with you some things that we can do--we talk about 
infrastructure, and we talk about veterans service. One of the 
greatest areas of need in my opinion is that we respect, honor, 
dignity and recognition of courage to our veterans.
    I want to share with you a few things. I am a retired 
military person. I had the honor of being, as the Chairman and 
Congressman Buyer stated, Chairman of the Military Affairs for 
6 years in the Florida House of Representatives and of course 
like you, you are trying to put 10 pounds in a 2-pound sack and 
the needs are so great and the resources are few. And we do 
have a lot but one of the greatest things that we can do for 
our veterans is elevate the level of recognition and respect, 
and let me share with you a couple of things that you can do.
    I had the honor of passing a piece of legislation for 
veterans--and I had the honor of designing them, the military 
license plates for the State of Florida and the military. I 
even brought this. Mr. Chairman, I even brought this so you 
guys could see how good these look. I wanted to show you some 
of the license plates that we have designed. This is voluntary, 
doesn't cost the taxpayers $1. We get $25 extra for these 
license plates and I will show them to everyone--if any 
veterans out there haven't bought one, I want you to get one. 
You pay in addition to your license plate, you pay this extra 
money and it goes to the nursing homes in the State of Florida 
for veterans. We have raised millions of dollars at no cost to 
the taxpayer, and it is another way of expressing pride in the 
military. You don't have to be in the military to have one of 
these. You could have a son or daughter or uncle or granddaddy, 
and these are some of the things that we can do.
    I made part of my testimony, my last newsletter as a member 
of the House of Representatives, and on the back I show you 
these license plates and I show you how much money we have 
raised by branch of service. And the Army is number one. I just 
want to make sure I get that in the record. I am about as 
unbiased as anybody can be when it comes to the military.
    We have, Mr. Chairman, also one of the things that, and 
Members of the Committee, and I hope that you will take your 
leadership and share some of these as you go around the country 
because there are things that we can do for the mental health 
infrastructure and the appreciation infrastructure of the 
military that aren't being done.
    In the Florida House of Representatives we set up what we 
call Military Appreciation Day, where we took about and hour 
and a half in the chamber and saluted the military, all 
branches, all members who have served, all people who had a 
relative that served, and we tape these programs and we put 
them, we have a Web site called Floridasalutes.com and on 
Veterans Day and on the 4th of July, with no cost to the 
taxpayer, these appreciation salutes are shown on Florida 
channel all over the State of Florida where millions of people 
have had the opportunity to see this and they have responded 
very positively with it.
    Now, let me tell you, I have brought back from the House of 
Representatives, where as Chairman of the Military Affairs, in 
this Committee, during my tour here, I wrote 5,000 letters to 
every deceased veterans family in this area. Every day we would 
go through obituaries and if they served at any time in any 
branch we would write a letter letting them know that their 
loved one's service has not gone unnoticed. The response we get 
back from families during that critical moment of having to 
provide the last service to a military person is unbelievable, 
and it didn't cost anything but a postage stamp.
    Today as a school board member--we have term limits. I 
finished my 8 years in the Florida House of Representatives. As 
a school board member--I am the military liaison person for the 
school board--I have written already over 350 letters to people 
in this community on behalf or our 125,000 children in this 
district saying thank you for your loved one's service.
    These are things that money can't buy. It is showing that 
outreach and respect and dignity, and while I said in my 
statement to you, and I provided you with a copy of this 
newsletter, I hope that you will be able to watch some of the 
things we have done in Floridasalutes.com but let me end with 
kind of a contradictory statement. I said I wasn't going to ask 
you for anything. I just want you to provide leadership around 
the country and share these ideas that I have shared with you 
that we are doing.
    I do want to ask you for something. We have a wonderful 
cemetery, military cemetery, in northeast Florida and as a 
school board member, as a former House member in the State and 
a veteran, I would like to ask you, would you to consider 
somehow that in our veterans cemetery that we could have an 
auditorium so that children on field trips could come to that 
cemetery, not where the deceased are, but where the living 
republic is founded, and maybe see a panorama presentation of 
the military and its sacrifice and its courage and the selfless 
service it has rendered to this country.
    Because Mr. Chairman, Members of the Committee, the bending 
of a twig starts young. You don't shape a 16-year-old tree. You 
have to shape it when it is a twig and if we are going to pass 
on the rich heritage of this country that has been preserved by 
the establishment of a strong military to keep us free, as 
Congresswoman Brown alluded to in George Washington's 
statement, we have to transfer this compassion and this 
appreciation to our young people, and I can see right now young 
people going to a field trip at the National Cemetery and 
sitting down in an auditorium and seeing a panorama 
presentation of what this military means to America.
    And, Mr. Chairman, the last thing I did, 3 weeks ago, I 
passed an agenda item on the school board, and this one has 
gotten unbelievable community response, where the World War II 
veterans and the Korean conflict veterans, if they did not get 
a chance to finish high school, that we reward them a high 
school diploma at the place of their choosing, at the high 
school that they would have graduated from should they want to 
do or at the school board meeting, live in color, or we will go 
to the nursing home or wherever they want it to be and we will 
give them that high school diploma and if you could just use a 
little bit of psychopictography and put together the picture of 
a high school graduation and then here comes granddaddy across 
the stage to get his diploma, that he gave up his future, he 
gave all of his tomorrows so that we might have today. I think 
that is the kind of dignity that I would like to see put into 
the protocol of military.
    Mr. Chairman, I hope I haven't taken too long. I overshot 
the runway on my time. I got barbed wire fence in my landing 
gear, but I thank you for your opportunity to appear before 
you. I am honored. I have had a lot of honors in my life, and 
this will be cherished as one of the highest. Thank you, sir.
    [The prepared statement of Colonel Jordan appears on p. 50. 
The newsletter is being retained in the Committee files.]
    The Chairman. We thank you both for your eloquent 
testimonies and very good suggestions. Thank you. Ms. Brown. 
Mr. Crenshaw.
    Mr. Crenshaw. Maybe just one question, and again thank you 
all, as well as all the witnesses, for your testimony. I know 
both of you gentlemen were involved in the National Cemetery, 
and one of the issues we are still dealing with is the kind of 
transportation aspect, because we are hoping someday to have an 
interchange on Interstate 95 which will make it a whole lot 
more accessible. But I would love to hear your comments on that 
aspect as well as any early thoughts you have because the way 
the construction is working, it has been fast tracked. They 
have taken 10 acres and are actually having ceremonies now. The 
total buildout will be sometime in the coming and I think it is 
appropriate, Mr. Jordan, as you mentioned, maybe there is a way 
with some private funds to actually bring about awareness in 
terms of just education and awareness that we might have 
additional memorials that will be above and beyond what the 
National Cemetery will have. But could you comment on that? We 
have Congresswoman Brown, who is also on the Transportation 
Committee so maybe an opportunity, your thoughts on the 
transportation aspect as well as what your sense is as you talk 
to people early on about the National Cemetery and how that is 
working out.
    Corporal Hughes. The National Cemetery is becoming very 
busy. It is absolutely beautiful given the first phase, which 
is a temporary phase. The road to the cemetery is awesome, and 
long. It is 22 miles from I95. A new proposed road located on 
Pecan Drive, which is the next exit north of the airport road. 
The distance to the National Cemetery would be 6 miles versus 
20 miles. But the biggest aspect of that is, and this is with 
all of our National cemeteries when we locate national 
cemeteries, we seem to have the tendency to putting cemeteries 
out in the middle of these large fields with nothing around 
them. The new road proposal would give our National Cemetery in 
Jacksonville and our veterans, the service that the families 
are looking for and need in that hour of need, which is very 
sorrowful, and that is transportation by air, motels, 
restaurants, and a beautiful way into the National Cemetery.
    I want to say that the traffic on Lannie Road, where nine 
funerals a day, nine hearses running down Lannie Road, which is 
a residential road, very small, and past the prison, past the 
prison farm and then a detention, a youth center, before you 
get to the National Cemetery, not a very good sight. The new 
road will open up not only for the City of Jacksonville the 
beauty, but to a service to our veterans.
    I want to touch on base just not the new road which I have 
given proposals to our Congressman, Congressman Crenshaw, and 
the balance of our Congressmen in the area, the second proposal 
is the construction at our Jacksonville National Cemetery.
    We are stymied at this time to do nothing at that National 
Cemetery because of the safety aspect of the Lannie Road, the 
safety aspect is bad. We are limited at this time on any 
ceremonies at the National Cemetery.
    One funeral just fills the parking out on to the road, and 
it creates a safety hazard.
    I want to touch base on another, which is the school 
children. My dream at the National Cemetery is our children 
today aren't educated in reference to where their freedom comes 
from, and I want to say to you as prestigious Members of our 
Veterans' Affairs Committee our children need to be educated. 
They need to know where their freedom comes from, and education 
on, a half day's trip to the National Cemetery for our children 
would be so great. A museum possibly and a structure at our 
National Cemetery to educate them.
    That is my other dream, along with other dreams for 
veterans. I work constantly, day in and day out, on veterans 
issues, with my own Congressman John Mica. I am constantly in 
touch with John about veterans.
    Thank you so much. Thank you for the question, Congressman 
Crenshaw.
    Colonel Jordan. Mr. Chairman, may I? On the road issue we 
are missing one of the greatest opportunities to share what a 
great job the Congress and the President and the people have 
done for northeast Florida and southeast Georgia by not being 
on I-95. You know, Arlington Cemetery it says Arlington 
Cemetery. We are missing that. If you want to see how big Duval 
County is, try to get to the cemetery. It is unbelievable. You 
think you are driving to El Paso. It is a long way.
    And if we are missing--one of the reasons that we wanted 
this site so greatly is so that we could capitalize and use the 
synergism of the airport with its rental cars and its air hub 
and its transportation and its hotels and restaurants. The way 
it is worked now you have to go around forever to get there and 
it would be a tremendous opportunity for us if we could have I-
95 signs at Jacksonville National Cemetery.
    I can't state strongly enough my compassion, feelings about 
having this auditorium. Please, please, if you will, consider 
that as an option because our young people are our future, and, 
Mr. Chairman, if I may, I would like to end with this one 
comment. This is will complete my comments to you unless you 
have questions. William Jennings Bryan, the great orator, said 
you may never know to whom you are speaking when you speak to a 
child. I share the need to know what the great military and the 
preservation of this free republic is all about.
    Thank you.
    The Chairman. Thank you. Mr. Buyer.
    Mr. Buyer. Thank you. It is refreshing to hear you talk 
about initiatives that can be done at the local level, which 
honor and support our veterans, and that is what you have done. 
I want to thank you.
    I am going to give you my business card. So when this panel 
is excused, Colonel, if you can come up and grab this. I would 
like for you to send me the legislation that was used here in 
the State of Florida with regard to the license plates, and I 
will take your initiative and we are going to do it in Indiana. 
Okay.
    Colonel Jordan. Would you also give the World War II and 
the Korean veterans a high school diploma?
    Mr. Buyer. Whatever you want to give me, you send me. Would 
you please do that?
    The other thing I am going to ask is the Committee, the 
Chairman is taking the Committee on to Orlando. I am going to 
stay here in town and John Ander Crenshaw is honoring Tillie 
Fowler tonight and I just checked with my schedule and I have 
time if, Ander, if you permit me, with permission--I am not 
asking you to join me but I would like to go out and see the 
National Cemetery. Is that okay?
    Mr. Crenshaw. It would be great.
    Mr. Buyer. Are you free in the morning?
    Corporal Hughes. Yes, sir.
    Mr. Buyer. All right. I am going to give you my phone 
number. And I would like for you to be--let's stay in touch. I 
am staying at the Hyatt Regency. What time do you get up in the 
morning?
    Corporal Hughes. Five o'clock.
    Mr. Buyer. I am not sure I even move at five o'clock in the 
morning.
    Corporal Hughes. And that is 7 days a week.
    Mr. Buyer. Corporal, you are showing off. Well, let's 
contact--we will contact and work out a time. I am going to go 
out and see the cemetery, and perhaps we can understand Ander's 
challenges.
    Corporal Hughes. I am delivering a check today which I 
received this week in Tallahassee. I do want to say that one of 
our organizations donated $100,000 to the Veterans Affairs for 
the State of Florida. They were amazed at that check. They 
said, my God, we could do so much for this with the Veterans 
Affairs, and they turned around and gave me a check for $3,000 
for the National Cemetery for a project, and thank you. Thank 
you.
    Mr. Buyer. Thank you very much. I yield back.
    The Chairman. We thank you both so much, and we will be in 
touch with both of you.
    The last panel for today is the Department of Veterans 
Affairs. We have Robert Neary, Jr., who is the Director of the 
Service Delivery Office, Office of Construction and Facilities 
Management for the U.S. Department of Veterans Affairs, 
accompanied by Tom Cappello, Director of the North Florida/
South Georgia Veterans Health System, and Reginald M. Lawrence, 
SRCT, CPP, Team Leader of the Jacksonville Vet Center, 
Readjustment Counseling Service, Veterans Health 
Administration, of the U.S. Department of Veterans Affairs.
    I hope you gentlemen will take advantage of having heard 
some of the earlier testimony and instead of just reading your 
prepared testimony, I hope you will deal with some of the 
issues that have come up also.
    Mr. Neary, thank you for being here today.

 STATEMENT OF ROBERT L. NEARY, JR., DIRECTOR, SERVICE DELIVERY 
OFFICE, OFFICE OF CONSTRUCTION AND FACILITIES MANAGEMENT, U.S. 
   DEPARTMENT OF VETERANS AFFAIRS; ACCOMPANIED BY THOMAS A. 
  CAPPELLO, MPH, FACHE, DIRECTOR, NORTH FLORIDA/SOUTH GEORGIA 
 VETERANS HEALTH SYSTEM, VETERANS HEALTH ADMINISTRATION, U.S. 
DEPARTMENT OF VETERANS AFFAIRS; AND REGINALD M. LAWRENCE, SRCT, 
   CPP, TEAM LEADER, JACKSONVILLE, VET CENTER, READJUSTMENT 
   COUNSELING SERVICE, VETERANS HEALTH ADMINISTRATION, U.S. 
                 DEPARTMENT OF VETERANS AFFAIRS

               STATEMENT OF ROBERT L. NEARY, JR.

    Mr. Neary. Mr. Chairman, thank you and Ranking Member 
Buyer, Ms. Brown. I am pleased to be here today along with my 
colleagues to appear before the Committee to discuss the 
progress that is being made to improve----
    Ms. Brown of Florida. I am sorry, but could you put the 
microphone a little closer to you.
    Mr. Neary. To provide an update to the Committee and to the 
veterans community on the status of major construction projects 
currently under construction in Gainesville and here in 
Jacksonville at the cemetery and to touch on some of the other 
issues that the other witnesses have raised and the Committee 
have raised, and as you mentioned, I am joined by Reginald 
Lawrence, the Team Leader at the Vet Center here, and Tom 
Cappello, the Director of the North Florida/South Georgia 
Health System.
    In August of 2008, VA began construction of a new patient 
bed tower at the North Florida/South Georgia facility in 
Gainesville. This new five-story tower will provide for private 
patient rooms for 226 veterans, with private toilet and bathing 
facilities. The patient bedrooms will occupy four floors, with 
supporting services in this 245,000-square foot building on the 
ground floor.
    The facility will provide state-of-the-art patient 
bedrooms. Currently most of the bedrooms at the Gainesville VA 
include two or more patients. The new rooms will enable greater 
patient privacy, better opportunity for patients to interact 
with their families and caregivers, and better prevent 
infections.
    Funding in the amount of $136.7 million was appropriated by 
the Congress for this facility, which is, as I say, under 
construction and approximately 15 percent complete. We expect 
completion in April of 2011. We have a couple of boards up over 
here on the Committee's right. I would encourage the Committee 
Members and staff and members of the audience to get a closer 
look at the end of the hearing if they would like.
    It was also mentioned by Mr. Crenshaw, the VA recently 
opened a new National Cemetery in Jacksonville for burials. 
This was accomplished through the development of a small 
portion of the property. The design of the larger first phase 
of buildout for the new cemetery was recently completed and is 
undergoing its final design review right now. We anticipate 
awarding a construction contract in August of this year, to be 
completed in the summer of 2011. Approximately 50 acres will be 
developed to accommodate burials for 10 years. This will 
include approximately 7,500 grave sites for casket internments, 
a 4,500 niche columbarium, 500 in-ground sites for cremated 
remains, along with an administration public information 
center, to include an electronic grave site locator, a memorial 
walkway, and necessary maintenance facilities.
    This project totaled $22.4 million, which has been 
appropriated and is ready to be obligated, as I say, this 
summer.
    Ms. Brown and the Chairman and Members, a number of 
witnesses have referenced plans to establish a new clinic here 
in Jacksonville. We appreciate Ms. Brown's facilitating a 
discussion earlier this morning with representatives from 
Shands and the city, and the Chairman joined us for a while 
toward the end. We have encountered serious challenges as we 
move forward on this project, but we believe we made some 
progress this morning. We look forward to pressing on and 
hopefully bring those issues to conclusion quickly and get 
moving with what I think everybody recognizes is a very needed 
project.
    These projects demonstrate the Nation's commitment to care 
for our veteran heroes, not only in Gainesville and 
Jacksonville but across the country. New and improved 
facilities for veterans are in design or construction. Since 
2004, $5.6 billion have been appropriated by the Congress for 
the Department's major construction program, with over 50 major 
projects having received funding to provide new facilities and 
improve or expand existing ones.
    We look forward to completing the projects here and in 
Gainesville as well as around the country, and we would be 
pleased to answer questions that the Committee may have, and I 
believe my colleague from the Vet Center has a statement as 
well.
    [The prepared statement of Mr. Neary appears on p. 50.]

          STATEMENT OF REGINALD M. LAWRENCE, SRCT, CPP

    Mr. Lawrence. Good afternoon, Congressman Filner, Ranking 
Member Buyer, Congresswoman Brown, other Members of the 
Committee who are not present.
    I appreciate the opportunity to appear before you today to 
discuss the role of the Jacksonville Vet Center in building the 
critical health infrastructure for veterans in Jacksonville and 
North Florida, South Georgia.
    I also extend to you a warm greeting from Dr. Alphonso R. 
Batres, Chief Officer of Readjustment and Counseling Service in 
Washington, DC.
    And also, again, as Mr. Neary said, accompanied by Mr. 
Thomas Cappello, Director of the Gainesville VA Medical Center.
    I have tailored my remarks to include not only Jacksonville 
but North Florida and South Georgia as well, since our care for 
veterans and their families extend to multiple counties in both 
States. Prior to the opening of the Gainesville Center in 2007, 
the Jacksonville Vet Center served 14 counties in North 
Florida, two counties in South Georgia. We currently serve 11 
counties in North Florida, including Duval, Bradford, Baker, 
Clay, Columbia, Flagler, Nassau, Putnam, St. Johns, Volusia, 
and Union Counties, and two in South Georgia, Camden and 
Charlton Counties. We estimate the total veteran population in 
the area at just over 250,000. In Duval County alone we 
estimate the veteran population at approximately 150,000, if 
not higher. In fiscal year 2008, we recorded 4,726 visits for 
direct service, totaling 3,063 hours of client contact, 7,764 
hours of core staff employment, meaning those are the hours 
that are actually worked by the members of the Jacksonville Vet 
Center team. We also provided counseling services to 493 
veterans of Operation Enduring Freedom (OEF) and Operation 
Iraqi Freedom (OIF) in fiscal year 2008.
    Since Vet Centers were enacted by law in 1979, the 
Jacksonville Vet Center has provided readjustment counseling to 
over 35,800 veterans. We have documented an average of 400 
visits per year since our initial opening in March 1980. The 
core mission of Vet Centers is to provide readjustment 
counseling and outreach services to veterans exposed to war 
trauma in armed combat theaters of operations. Our Vet Center 
provides a wide range of services with a holistic approach to 
aid the returning and post-deployed combat veteran with the 
ability to transcend the emotional and psychological traumas of 
war and to reintegrate themselves into their communities 
successfully.
    Our focus on successfully enabling this transition entails 
a full examination of their post military, economic, social, 
and family needs. Our role is central to meeting the ongoing 
health care needs of post-deployed veterans in conjunction with 
the VA North Florida/South Georgia Veterans Health System. The 
Jacksonville Vet Center provides professional services for 
post-traumatic stress disorder (PTSD) and other war-related 
issues through individual, group, marital, and family 
counseling, along with substance abuse, military sexual trauma, 
and bereavement counseling. In addition, we provide counseling 
to homeless veterans, veterans seeking employment, and veterans 
with crisis intervention needs. We have a direct referral 
system for VA benefits information and assistance to other 
agencies in the community.
    A special feature of our services to veterans is our Fee 
Contracts Program, which is designed to provide counseling 
services to veterans with PTSD in rural areas and to those 
veterans who are either having financial difficulties or 
transportation problems in accessing VA services. The program 
allows direct counseling and treatment by private professionals 
who contract with the Vet Center for these services. This 
program is operational in St. Augustine and Daytona Beach, 
Florida.
    We have collaborated very effectively with existing VA 
programs and other community-based programs by establishing 
memoranda of understanding upon referrals to our Vet Center to 
address specific needs of veterans. For example, we have a 
program for veterans referred to us by the Northeast Florida 
Safety Council for Veterans cited for DUI. This arrangement 
allows us to assess these veterans who may not otherwise be 
seeking services from a Vet Center or a VA facility for PTSD or 
other conditions. We have seen recent studies that have found a 
disproportionate rate of returning veterans who have been cited 
for DUI.
    Another core mission of the Jacksonville Vet Center is to 
provide outreach services to veterans and community-based 
organizations to inform them of Vet Center and VA services. In 
2005, the Jacksonville Vet Center hired an OEF/OIF Outreach 
Specialist. The position is for an Operation Enduring Freedom 
or Operation Iraqi Freedom veteran who will conduct outreach to 
active duty, National Guard and Reserve units to inform them 
and their families of available VA services. Since 2003, we 
have served over 2,200 OEF/OIF veterans and their families at 
the Jacksonville Vet Center.
    We also provide bereavement counseling to family members of 
military personnel who lost their lives while on active duty. 
Thus far, we have provided bereavement counseling services to 
15 families of OEF/OIF veterans in our area.
    Historically, the Vet Center provides veterans a point of 
contact to access the VA health care system and benefits 
program. We welcome the opportunity to be part of building the 
critical health care infrastructure for veterans in 
Jacksonville. We remain committed to keeping the promise of 
providing the highest quality care to veterans and their 
families at the Jacksonville Vet Center.
    Thank you, Mr. Chairman and Members of the Committee, for 
allowing me to appear today. I will be happy to answer any 
questions that you may have at this time.
    [The prepared statement of Mr. Lawrence appears on p. 51.]
    The Chairman. Thank you. Ms. Brown.
    Ms. Brown of Florida. First of all, thank you, Mr. 
Lawrence, and the other members for your service and your 
commitments, and I have a few questions.
    We heard a lot today but we haven't had any real discussion 
about the problems we have providing mental health services to 
the veterans, those services related to drugs or alcohol, and 
it is a problem, and the homeless vets, all of it goes 
together. One-third of the people on the streets who are 
homeless are veterans, and so to me that means the system is 
not working. And so the question is how do we work, do we work 
with other organizations or how do we provide the mental health 
services in the area?
    Mr. Cappello. Well, a couple things, I would like to 
respond. One of the things is when I arrived in Gainesville 2 
years ago, one of the things I identified quickly is that we 
were underserving the population up here in Jacksonville, and 
to that end, with the moneys that have been provided to enhance 
mental health services, we are attempting to develop basically 
a mental health clinic up here in Gainesville--in Jacksonville. 
In fact, we are looking for square footage now which, to site 
that unit, would also be collocated with a group from 
psychiatry that would be developing a program for OEF/OIF vets 
up here in Jacksonville.
    So I do recognize what you are saying about the amount of 
services we need up here. We are working to get those, and with 
regard to the homeless services, we do partner with community 
agencies to provide housing for homeless veterans, and that is 
also--we have some of those contracts up here in Jacksonville 
and we are looking to expand them and to expand our homeless 
services in this area.
    Ms. Brown of Florida. But you know providing services for 
the homeless is not just providing a place. They need 
counseling, they need--you know, it is a whole list of stuff 
that they need.
    Mr. Cappello. Right. The Homeless Services Program is 
directed to do that, and we are trying to expand that up here.
    Ms. Brown of Florida. There has been some discussion, a lot 
of discussion. It seems as if there is a need for a hospital in 
this area, a hospital, not a clinic. We need a clinic right 
now. I mean the CARES Commission said we needed it 10 years ago 
and it is not going to take us another 15 years to do it. But 
there is a lot of discussion as to that we need a hospital in 
this area. What are some of the factors that go into 
determining why an area should have a hospital? I mean, because 
we are much larger than some of the areas as far as the number 
of retirees in our area and we have three major military 
facilities right here. So what are some of the factors, and 
while you are doing that I mean there was some discussion about 
the cemetery that I am happy that we have and then there some 
discussion about the road. You have to get the cemetery before 
you get the road and you work on the road and the other things 
that go with it. Now we have the cemetery and I think it is 
crucial. I mean to push for the cemetery, but if we need a road 
then you know you all should come and request it.
    Mr. Neary. Let me begin a response and maybe Tom would like 
to join in. The VA, as you know, has conducted a series of 
studies that for the most part were completed in 2004, a 
Capital Assessment Realignment for Enhanced Services Study. 
That laid out a roadmap for facility improvements and 
expansions that we have been following. Those studies did not 
identify Jacksonville as the site of a future VA medical 
center, VA hospital. Obviously as we have heard here today, 
things change, increasing numbers of veterans coming to the VA 
and the VA needs over time to be attuned to that, not rely on 
studies from the past but to maintain contemporary 
understanding and knowledge of what the requirements are and 
address the future through those analyses.
    Ms. Brown of Florida. You know there was some discussion 
about the location of the cemetery. I mean the factors go in to 
you all deciding where to put a cemetery or facility? What are 
some of those factors?
    Mr. Neary. I can't necessarily speak with too much 
authority, but I believe the National Cemetery Administration 
currently has a policy that their objective is to have any 
national cemetery within 75 miles of all veterans.
    Ms. Brown of Florida. Absolutely, and the problem was 
initially Miami. They had to go to Bushnell and we had to 
expand Bushnell before we could even get a cemetery in the 
Jacksonville area because you had to go according to the 
population, and there were a million veterans in the Miami area 
that were not able to get to any cemetery.
    Mr. Neary. Correct.
    Ms. Brown of Florida. I understand that part of it, but the 
question was the location. There are some factors, and I guess 
we can get that from that group to give us what are some of the 
factors that you all consider when you decide on a cemetery.
    Mr. Neary. On a specific site on a cemetery?
    Ms. Brown of Florida. Yes.
    Mr. Neary. We will arrange to provide that for the record 
if you don't mind.
    [The VA subsequently provided the following information:]

    VA's policy is to establish new national cemeteries in areas that 
have the largest number of veterans who do have a burial option in a 
national or State cemetery within a reasonable distance of their 
residence. The current policy defines ``reasonable distance'' as 75 
miles based on experience and data. VA data show that over 80 percent 
of those interred in national cemeteries resided within 75 miles of the 
cemetery at the time of their death. The current policy also sets an 
unserved veteran population threshold of 170,000 as the trigger for a 
new national cemetery. Results of the Future Burial Needs Study that 
was mandated by Congress in the Millennium Health Care and Benefits Act 
of 1999 indicated several large areas of unserved veterans (170,000 and 
above) would exist at the beginning of the 21st century, including two 
areas in Florida; Jacksonville and Sarasota.

                                   Office of Construction Management
                                   National Cemetery Administration
                                   Department of Veterans Affairs

         Basic Considerations National Cemetery Site Selection

        <bullet>  Proximity--The site should be located as close as 
        possible to the densest veteran population in the area under 
        consideration. Not only actual distance, but travel time to the 
        site is considered.
        <bullet>  Size--Sufficient acreage must be available to provide 
        gravesite for at least a 40-year projection. Interment rates 
        and acreage requirements are projected based upon veteran 
        population within a 75-mile radius of a projected site.
        <bullet>  Shape--Uniform boundaries, undivided by roads or 
        easements, with generally square or rectangular shapes are 
        desired. Irregularly shaped sites are more difficult to access 
        and less efficient to access and less efficient to design and 
        develop.
        <bullet>  Accessibility--The site should be readily accessible 
        via highways and major public roadways. Close proximity to 
        highway interchanges and public transportation is desirable. 
        Road quality of access highways is also considered.
        <bullet>  Utilities & Water--Availability of public utilities 
        (electricity, water, sewer, gas) are important. However, on 
        site septic systems and on site potable water wells or ponds 
        are acceptable. An adequate water supply for irrigation is of 
        primary importance.
        <bullet>  Surrounding Land Use--Site adjacent to visually 
        objectionable, loud noise, high traffic, or other nuisance 
        elements should be avoided. Both current and projected adjacent 
        land use is considered.
        <bullet>  Soils--Should be of a quality that will provide 
        adequate topsoil for growing turf; should have adequate 
        stability for constructing roads and buildings; should be well 
        drained; and should be free of shallow depth groundwater. There 
        should be no sub-surface obstructions or hazardous waste 
        present.
        <bullet>  Topography--Comparatively level to rolling terrain is 
        desirable for areas to be developed. The grade of burial areas 
        should be in the 2 to 5 percent range. There should be no sub-
        surface obstructions or hazardous waste present.
        <bullet>  Aesthetics--Existing site amenities such as pleasant 
        views and quality vegetative cover are favorable.
        <bullet>  Restrictions to Development--The presence of man-made 
        elements such as cultural/historic/archaeological elements, 
        utility easements, rights-of-way, or mineral rights can hamper 
        or legally prevent development. Presence of endangered species, 
        historic artifacts, and/or wetland areas limit or preclude 
        cemetery development.

    Ms. Brown of Florida. Yes, that is fine.
    Then let's go to the clinic. What are some of those factors 
that you consider when you consider location of a clinic? I 
mean someone mentioned that you want it in a certain area, but 
what kind of transportation is in the area, how many veterans 
live in that core area. I mean there is a list of criteria that 
you all use when you all decide on putting a location. Members 
of Congress don't tell you where to put it. You have a formula.
    Mr. Neary. We have a series of factors that we evaluate the 
sites against, to include access to veterans through public 
transportation, constructability of the site, the availability 
within the surrounding area of amenities, if you will, places 
for veterans to come to the clinic and their families to eat, 
and those sorts of things. We will be glad to provide that to 
you if you would like to see that.

    [The VA subsequently provided the following information:]

                              SITE SURVEY
                     EVALUATION FACTOR DEFINITIONS
                           OUTPATIENT CLINIC
KEY VALUES
                    Outstanding
                                        (9-10)
                    Acceptable
                                        (7-8.9)
                    Minimal
                                        (5-6.9)
                    Unacceptable
                                        (0-4.9)
1. COMPATIBILITY OF SURROUNDING AREA
1.1 Location to Nearest Emergency Response Service
    O--Nearest emergency response is located within 1 mile of a major 
hospital.
    A-- Nearest emergency response is located within 3 miles of a major 
hospital.
    M-- Nearest emergency response is located within 5 miles of a major 
hospital.
    U--Nearest emergency response is located more than 5 miles of a 
major hospital.
1.2 Site Adjacencies
    O--Site is located in a quiet area with little or no noise 
disturbing the clinic setting from the street or surrounding 
neighborhood. Adjacencies consist of attractive, like new office 
buildings. Surrounding neighborhood is compatible to clinic setting.
    A--Site is located in an area that may have some noise factors 
intruding from neighboring areas, but which are not disturbing to the 
clinic setting. Adjacencies consist of a mix of new and old office 
buildings and some light industrial facilities. Surrounding 
neighborhood is compatible to clinic setting.
    M--Site is located in an area with some noises coming from 
neighboring areas that may be disturbing to the clinic setting. 
Adjacencies consist of older office buildings and light industrial 
facilities. Surrounding neighborhood is generally compatible to clinic 
setting.
    U--Site is located in a very noisy area that is disturbing to the 
clinic setting. Adjacencies consist of unattractive buildings and 
medium/heavy industrial facilities. The neighborhood is run down and 
includes businesses not compatible with the clinic setting.
1.3 Aesthetic Quality and Zoning
    O--Site is in a pleasantly landscaped office park with 
predominantly office buildings housing professional-type businesses of 
high aesthetic quality. The site is zoned appropriately to include 
medical facilities.
    A--Site is in a landscaped mixed business/light industrial area of 
office-type buildings, both professional and service oriented with 
medium aesthetic quality. Site zoning is mixed, but includes medical 
facilities.
    M--Site is in a mixed light/medium industrial area, and zoning is 
mixed and does not necessarily include medical facilities.
    U--Site is in a heavy industrial area and would have to be rezoned 
to include medical facilities.
1.4 Location to Hospital
    O--Site is located within 3 miles of a major hospital.
    A--Site is located within 5 miles of a major hospital.
    M--Site is located within 8 miles of a major hospital.
    U--Site is located more than 8 miles from a major hospital.
1.5 Location of Majority Veteran Population/Catchment Area
    O--Site is located in an area where the majority of the veteran 
population lives. Veterans who must travel a distance are very familiar 
with the area where the site is located and will not have a problem 
finding the site.
    A--Site is located in an area where a large veteran population 
lives and/or works. Veterans who must travel a distance will not have a 
problem finding the site.
    U--Site is located in an area where veterans do not generally live 
or work. Veterans who must travel a distance will not be familiar with 
the area.
2. ACCESSIBILITY
2.1 Access to Major Highways
    O--Major highway and/or highway interchanges are directly 
accessible to the site. The site is visible to the highway. The address 
is known to the community, and patients and visitors would have no 
trouble finding the building via major highways.
    A--Site is located on a main traffic artery, with highway 
interchanges between 1 and 2 miles away. The site address is known to 
the community, and patients and visitors would have no trouble finding 
the building.
    M--Site is located on secondary artery. Highway interchanges are no 
more than 3 miles away. Patients and visitors would some have 
difficulty finding the building.
    U--Site is located on an isolated street. Highway interchanges are 
more than 5 miles away. Patients and visitors would have difficulty 
finding the building.
2.2 Public Transportation
    O--A bus route is available with bus schedules providing service 
regularly throughout the business day. Pedestrians would be dropped off 
in front of the VA building.
    A--A bus route is available with bus schedules providing service at 
intervals during the business day. Pedestrians would have a one block 
to walk to enter the VA building.
    M--A bus route is available; however the bus schedule is sporadic. 
Pedestrians would have at least a two-block walk to enter the VA 
building.
    U--No bus service available.
2.3 Eating and Shopping
    O--The site is located nearby to a number of restaurants and fast-
food establishments, a market, shopping mall, bank, cleaners, a drug 
store or the like, so that patients, visitors and employees have access 
without the use of a car, and have a variety of establishments to 
choose from. There is also a movie theatre or other type of 
entertainment available.
    A--The site is located within a 5-minute drive by car to a number 
of eating establishments, and a shopping center with some diverse 
businesses, such as a bank, cleaners and drug store. Some type of 
entertainment is available.
    M--The site is located within a 10-minute drive by car to eating 
establishments, shopping areas, and entertainment.
    U--The site is located so that patients, visitors and employees 
must drive more than 10 minutes from the site to eating establishments, 
shopping areas, entertainment.
2.3 Access/Egress
    O--Located on a divided highway with traffic signals and turning 
lanes in both directions.
    A--Traffic signals with turning lanes in both directions.
    M--Traffic signals without turning lanes.
    U--No traffic signals.
3. MAN-MADE CONDITIONS
3.1 Shape/Topography of Site
    O--The parcel is flat and shaped (square or rectangular, uniform 
boundaries, undivided by roads, contiguous parcels) to allow the 
maximum developable acreage to provide green space and landscaping 
around all parking lots and building. The front of the parcel offers 
full visibility of the building from the street and provides a 
conspicuous frontage, which is in harmony with the entire piece of 
property. Location of site provides access from two sides of the 
building and allows traffic to enter and exit from two curb cuts.
    A--The parcel is flat and shaped to provide more than moderate 
developable acreage, meets the requirements for green space and 
landscaping, and will comfortably provide for building footprint, 
parking and commercial traffic to the loading dock. Location of site 
allows traffic to enter and exit from two curb cuts.
    M--The site provides minimal green space and landscaping. 
Topography is generally flat, but contains some differences in level 
where patients/employees/visitors will travel. The shape restricts the 
developable acreage, but there is a safe flow of traffic to serve 
entrances and exits. The site offers only the minimum acreage 
requested.
    U--The site provides minimal green space. Topography is not flat 
and contains many differences in the terrain that would make it 
difficult for patients, visitors and employees to travel. The shape 
severely restricts the developable acreage (too long and narrow, 
irregular boundaries, non-contiguous). The site offers less than the 
12-15-acre minimum.
3.2 Utilities (electric, gas, water, sewer, telephone)
    O--All utilities are available to the site. There are no easements 
or legal restrictions prohibiting the start of construction.
    A--Most utilities are available to the site. Obtaining the 
remaining utility easements are in process and will not impact the 
start of construction. No other legal restrictions are pending.
    M--Site does not have all utilities and it will take approximately 
60 to 90 days to get utility easements approved to the site, which may 
impact the start of construction.
    U--Site does not have all utilities and it will take at least 6 
months to get utility easements approved to the site, which will impact 
the start of construction.
4. Natural Conditions
4.1 Site Characteristics
    O--Site is not in the 100-year flood plain and contains no wetlands 
to allow for maximum, unrestricted, developable acreage. There are no 
natural restrictions, and the landscape is attractive and unspoiled.
    A--Site is not in the 100-year flood plain and contains no 
wetlands. The site may contain a few natural restrictions, but allows 
for more than moderately developable acreage. The landscape is 
attractive.
    M--Site is in the 100-year flood plain, but can be mitigated and 
approved by FEMA.
    U--Site is in the 100-year flood plain and contains wetlands and is 
unsuitable for construction.
4.2 Environmental Issues
    O--There are no known environmental issues on this site.
    A--There are minor known environmental issues, but they can easily 
be mitigated to provide a clean site.
    M--Known environmental issues that would require major mitigation 
and would be time consuming to correct.
    U--Known environmental issues are of such magnitude as to render 
the site unsuitable for construction.
4.3 Elevation Above Flood Plain
    O--No flood plain issues.
    A--Flood plain issues can be mitigated per FEMA requirements.

    Ms. Brown of Florida. Yes, sir, I would.
    Mr. Filner, thank you.
    The Chairman. Thank you. Mr. Buyer.
    Mr. Buyer. Mr. Neary, I would like to share with you, as I 
also travel around the country, there are demands in certain 
areas, especially, sometimes it comes from my good friends and 
comrades, about the need, ``I must have a hospital,'' and 
``what the request really is''--this is in my judgment--it's 
not necessarily the need for the hospital. It is the need that 
a veteran with a particular disability, illness or disease has 
access to care. When I hear that, that is how I interpret it.
    So, no differently than how the Chairman and I worked 
together to resolve this issue in Deep Texas. The issue in Deep 
Texas was that the entire community was in demand but never had 
a VA hospital in Deep Texas, right?
    Mr. Neary. Right.
    Mr. Buyer. So how do we solve this, and then you find out 
you have all these regional challenges and biases and 
prejudices, San Antonio versus us down here, nobody cares about 
us and there are all these regional things that you don't even 
think about.
    And I just want you to, this is in my opinion. This trend 
line of moving toward the ambulatory care centers as we go in 
and we look at the communities, and we see what is available in 
the communities with regard to how we can take advantage of 
what medical technologies are in the communities so we are not 
duplicative, and whether that can be contracted so we are not 
redundant. I think that building these ambulatory care centers 
and doing your contract on inpatient care, where it makes 
sense, rather than building these behemoth medical hospitals of 
the past, I think your trend is correct. That is just my 
opinion.
    So as you look at Jacksonville now, I think what I am 
taking away from this are veterans organizations, and in 
particular Ms. Brown, whose patience is strained, when you look 
at when the clinic was first authorized to where we are today, 
I don't want to go to the past. I want you to now look toward 
the future. Speaking now, representing the VA, are you in a 
comfort zone that there is now a way ahead for us to be able to 
fund, and for you to be able to build, an ambulatory care 
center and contract this?
    Mr. Neary. The obstacles that we faced have been sort of 
real estate in nature for the most part and we have made 
progress. We have been some distance apart, but I think we have 
made progress. There is more work to be done. From what I heard 
this morning it seems to me that there is the opportunity to 
reach agreement on those issues.
    You mentioned the Veterans Health Administration's 
Harlingen, Texas situation. Harlingen is quite different than 
Jacksonville, but I think as you pointed out with health care 
technologies, pharmaceuticals evolving over the years, what is 
done in an outpatient setting can meet the needs of, in 
Harlingen's case, 95 percent of the people who come to the VA, 
who are driving to San Antonio 5 hours for outpatient specialty 
care, and with the health care center that is going to be put 
in Harlingen, that problem is alleviated.
    Mr. Buyer. This model that I am referring to has elasticity 
because it is dependent upon the synergies of excellence in 
whatever community in the country. So I understand that. I 
understand this isn't like Harlingen. That is what I loved when 
we developed the Charleston model about how we take advantage 
of the synergies.
    So now I am going to lock you down, okay, I am going to 
lock you down. In your testimony is that real estate is what 
was delaying that project, but your testimony here to me right 
now and this Committee is that those issues have now been 
resolved?
    Mr. Neary. No, they have not been resolved.
    Mr. Buyer. Then clarify that to me.
    Mr. Neary. I think we have probably clarified our different 
positions somewhat in our discussions with the Shands 
organization and it would appear from discussions today that 
reaching resolution would be achievable.
    Mr. Buyer. Okay, then give me a timeline.
    Mr. Neary. We have committed to meet soon with the Shands 
attorneys and real estate folks, and I would guess that those 
contacts can happen within the next week or two, and then over 
the course of those discussions, which is hard to predict a 
timeline. Our interest is in getting resolution as rapidly as 
possible. So we hope within the next 30 to 45 days we would 
have that resolution.
    Mr. Buyer. All right. That is encouraging.
    Ms. Brown of Florida. If the gentleman would yield for one 
quick second, because one of the things that sometimes is a 
challenge is that if you don't have the authorization, and you 
have that, and if you don't have the money, you have that. So 
those are not factors?
    Mr. Neary. Those are not factors. The real estate issue I 
am talking about, though, are difficult issues that we need to 
reach agreement on.
    Mr. Buyer. I know my time has expired, Mr. Chairman, but if 
I may. The real estate challenges, when you said that, 
immediately it just rushed into my head, were the challenges 
that I had to endure with Ms. Brown, and Mr. Filner had to 
endure equally with the Orlando hospital, all right. Real 
estate challenges, the purchase of that real estate, you know 
exactly what I am talking about. Took a very long time.
    Ms. Brown of Florida. Twenty-five years.
    Mr. Buyer. It took a long time and a lot of people had 
their own ideas and great interest on where they think you 
should buy it.
    Mr. Neary. Correct.
    Mr. Buyer. Well, I am glad, I am glad that you have that.
    The other question I have is with regard to the security 
requirements for contracts to build the VA outpatient clinics. 
I am starting to hear as we do this, have the contractor build, 
we lease, that in order for us to be able to attract developers 
and to have competitive bids that these new security 
requirements are placing great stress on our ability to attract 
the developer because of reuse. So can you help clarify this 
for me?
    Mr. Neary. Sure. First, for the other Members of the 
Committee's benefit, after 9/11 the VA and other government 
agencies who had not paid a lot of attention to some of these 
kind of security threats developed a set of criteria to apply 
to VA facilities, whether they were considered mission-critical 
facilities that we would want to be sure remain in operation 
after an event or whether they were life safety, where you 
would want to protect the occupants of the building.
    We have implemented a variety of features in our 
facilities, in our new facilities, including setbacks and 
facilities for sustainability over time. We have not received 
very much pushback at all from developers, and we have not been 
seeing a diminishing number of people competing for our 
projects. We have been contacted by some developers, one or two 
that I can recall, who feel that the amount of investment that 
they are required to make to implement these features then 
require a longer time to recoup from the building and since we 
don't have authority to lease for 20 years, they have a 
business problem they have to deal with.
    Mr. Buyer. Does that change our model?
    Mr. Neary. At this point in part because of the market we 
are getting more and more companies wanting to compete for our 
work now than ever before. So while some small number of 
companies have raised that as a problem, the others have not.
    Mr. Buyer. When I say change the model, when--okay, you 
cannot contract any longer than 20. Is that a Congressional 
mandate, is that in law or is that a secretarial?
    Mr. Neary. I believe it is a General Services 
Administration regulation. Whether it is in law or not I am not 
sure.
    Mr. Buyer. All right. Well, please, you to need to 
communicate that if you have requirements that are upsetting a 
delicate balance in the marketplace, you need to let people 
know.
    Ms. Brown of Florida. I did have a followup because I am on 
Transportation and we handle general services, and I overall 
have a problem with the way things are going right now and one 
of the things I am going to ask Transportation to have a 
hearing on is I don't really personally care for leasing, you 
know, buying the building, leasing it for 20 years. I prefer 
that the taxpayer own it and I don't know why we don't deal 
more, to me it just makes more sense.
    The Chairman. Either of you want to give a quick answer to 
that or not?
    Mr. Neary. The bottom line reason we don't build everything 
is that we don't have enough money to do it.
    Ms. Brown of Florida. Not everything, not everything.
    Mr. Neary. We don't have the money to do it, but on the 
other hand, in clinics, what will health care be like beyond 20 
years from now? Do we really want to own a building that 20 
years from now will probably be outdated and the health care 
that is delivered may well have changed to the extent----
    Ms. Brown of Florida. Well, how much could you as the owner 
be opposed to if it is your building and you could sell it. I 
mean it is our investment. I am not saying--but I think that is 
something that we have need to have a hearing on at least to 
bring in some of the developers because, for example, this 
project, you have all of the money and everything and the 
question is what kind of incentives or bonuses that we could 
put in to say, okay, you are talking about 18 months or 3 
months, how come we can't have that online in 12 months. We did 
it when one of the bridges went down more than once and we were 
able to get a project. We need to be able to put these 
facilities online a lot quicker because we have so many elderly 
veterans that need the services, I mean, you know.
    Mr. Buyer. May I reclaim my time? Let me conclude with 
this. I endorse what you are presently doing in having 
developers build and us lease. We don't anticipate what health 
care is going to be in 20 years, you said. You can use Corpus 
Christi as a prime example. You own that clinic. It is 
landlocked, you can't expand it. You can't do things you want 
to do and medicine has changed today from what it was in the 
1970s even.
    So it gives us elasticity, it gives us the ability to adapt 
in the future and it is almost like a Wal-Mart. Wal-Mart was 
able to build and expand because they did this type of thing 
quickly, and if we want to be able to open up that access and 
do that around the country, I endorse what you are doing.
    But I am pleased with regard to your testimony here in 
Jacksonville. I yield back.
    The Chairman. Thank you. Just a quick question, Mr. 
Lawrence, if I may. Do all of the Vet Centers around the Nation 
have an OEF/OIF coordinator or outreach person that you 
described or was that your decision there?
    Mr. Lawrence. No, sir. That comes out of Central Office of 
Readjustment Counseling, with Dr. Batres. Most of the Vet 
Centers now have what would be called outreach people aimed 
specifically at OEF/OIF veterans returning to provide outreach 
service and information about Vet Centers.
    The Chairman. My general sense of the development of Vet 
Centers, tell me if I am wrong or right here, is that they were 
set up to deal with some of the issues that Vietnam veterans 
raised.
    Mr. Lawrence. That is--the original legislation, that was 
Public Law 96-22.
    The Chairman. There is a branding that Vietnam veterans 
relate to or have over time. They know that is their center. I 
am not sure that the newer veterans don't know what a Vet 
Center is, at least compared to a clinic or a hospital, and it 
seems to me we need something----
    Mr. Lawrence. I like to think, Mr. Chairman, at the time 
the legislation was enacted back in 1979, it was specifically 
aimed at Vietnam Era veterans and the amount of work at that 
particular time taken to get in that population not only with 
the Vet Center but certainly within the VA system itself was 
possibly part of the reason why a number of vets out of the 
Vietnam era still have an attachment to the Vet Center. We have 
expanded our eligibility criteria all the way back to World War 
II now. We serve veterans from as early as World War II, 
through now, to the most recent vets, in all the other wars and 
interventions militarily that the U.S. has had since World War 
II. The outreach effort is certainly geared toward all those 
eligible veterans and again we continue to go back and revisit 
new methods of recruiting not only the younger veteran but 
maintaining services for the older veteran.
    I think there is a strong affinity with Vet Centers from, 
again, Vietnam veterans because the original legislation 
required us to do that then.
    The Chairman. Well, we thank you for all of your work.
    Ms. Brown of Florida. I have one last question.
    The Chairman. We need to get to the last part.
    Ms. Brown of Florida. Yes, one question back to the 
hospitals. It was mentioned earlier as far as the emergency 
room is concerned that they have to go to maybe Gainesville or 
Lake City to go to the hospital. My question, one of the things 
that we have done, I think we have done it, for women veterans 
is that they can kind of get, they can go to other places 
because certain programs are not available at the veterans 
facility. How do we have the emergency care in this area 
because they are shaking their head, yes, they have to go to--
--
    Mr. Cappello. Well, first of all if somebody has a medical 
emergency, we advise veterans to go to the nearest hospital.
    Ms. Brown of Florida. We reimburse them.
    Mr. Cappello. Well, what happens then is after that care is 
received, there is a determination made as to whether people 
qualify for it and when veterans don't have any other means to 
pay for it, we become the payer of last resort. So yes, we do 
reimburse veterans for emergency care to the point of what we 
call stabilization.
    The Chairman. You have a regulation that states if a third 
party insurer picked up any part of that cost, VA wouldn't pay 
anything. The House has just passed legislation that closed 
what I think is a big loophole that says we will pay whatever 
has to be paid for that veteran who has an emergency need.
    Mr. Cappello. That would be a very welcomed, you know, 
enhancement for sure.
    The Chairman. I am sorry I interrupted you.
    Ms. Brown of Florida. Well, no. I am finished. I just think 
that that emergency issue is a major issue here, you know.
    Mr. Cappello. That is a major issue. It is not only here in 
Gainesville but around the country. The veterans many times 
don't get in ambulances because they know they will go to the 
nearest medical center as opposed to the VA and many times 
they, I think, take unnecessary chances by driving their cars 
to the VA when they are having a medical emergency, and so I 
think this program, while we are able to--now in the past we 
weren't even able to pay at all for veterans that were 
requiring care for something other than their service 
connection, and so now we do have that ability and I think it 
has produced a much safer situation for our veterans and 
enabled them to get emergency care closer to their home.
    Ms. Brown of Florida. I think this is something that we as 
a Committee need to look into.
    The Chairman. We thank all of you, and we thank all of the 
panelists. We have some time to have an open microphone for 
those who want to share their thoughts. We want to limit you to 
a couple of minutes each. We will adjourn the formal part of 
our hearing at this time to receive the public testimony.
    [Whereupon, at 2:50 p.m., the Committee was adjourned.]



                            A P P E N D I X

                              ----------                              

   Opening Statement of Hon. Bob Filner, Chairman, Full Committee on 
                           Veterans' Affairs

    Good afternoon. I would like to thank the Florida Community College 
for their hospitality in hosting this hearing today.
    I thank everyone for attending this hearing and for your interest 
in providing the veterans of Jacksonville the proper health care 
infrastructure that they need.
    The purpose of today's hearing is to provide general oversight and 
to receive updates on the Gainesville Towers Project, a project which 
would not have been possible without the efforts of Congresswoman 
Brown.
    As many people in this room know, the new bed tower will correct 
the deficiencies in patient privacy.
    To this end, the new bed tower will have 245,000 gross square feet. 
The building will consist of four floors which will house 226 single-
bed patient rooms with private baths and a ground floor which will 
house supportive services.
    The contract for the bed tower was awarded in June of 2008, and the 
construction will be completed in April of 2011. It is also my 
understanding that about 10 percent of the construction has been 
completed to date.
    I look forward to hearing the testimony of the witnesses on our 
panels and also look forward to leading a constructive discussion on 
the progress of the bed tower.

                                 <F-dash>

Opening Statement of Hon. Steve Buyer, Ranking Republican Member, Full 
                     Committee on Veterans' Affairs

    Good Afternoon.
    Mr. Chairman, it is a pleasure to be here in Jacksonville, the 
hometown of our colleague Corrine Brown. Corrine and I came to Congress 
in the same year and I have enjoyed serving with her over these years.
    Ander Crenshaw, it is also good to see you here today. I know the 
fourth District of Florida is well represented by my very good friend. 
Ander has established himself in Congress as a respected voice on 
defense issues and a champion for our men and women in uniform.
    He has served on the Appropriations Subcommittee on Military 
Construction and Veterans Affairs since his appointment to the 
Appropriations Committee in the 108th Congress. Through his role on the 
Appropriation's Committee, he has been instrumental in supporting 
increased funding for the Department of Veterans Affairs (VA) and 
securing funding for the acquisition and construction of the new 
Jacksonville National Cemetery.
    Many here may recognize him for his annual Veterans Recognition 
Ceremonies. It is very meaningful to honor those who put themselves in 
harms way to defend our freedom. And, I thank you for holding these 
events and also the over 2,000 local veterans who have been honored for 
their service to our country.
    I also want to extend a warm welcome to everyone in attendance on 
behalf of our deputy Ranking Member, Cliff Stearns. I know he wanted to 
be here today, but unfortunately was unable to participate.
    Cliff is a long-standing leader of this Committee and a steadfast 
advocate for generous funding for veterans health care and earned 
benefits, particularly education.
    He has actively supported the call for a new regional health care 
facility in Marion County and expansion of the VA Hospital in 
Gainesville. For years he has been working on both these projects which 
have broken ground and I know he looks forward to seeing both projects 
come to fruition.
    I appreciate that we are having this hearing to discuss how VA is 
moving forward to expand services and meet the needs of veterans who 
live in the Jacksonville area.
    New technologies make it possible to provide more diagnostic, 
specialty and surgery services in an outpatient setting, rather than a 
hospital. To maximize the use of these advances and bring a broad array 
of specialized services closer to where veterans live, the VA is moving 
from clinics to new ``Ambulatory Care Centers'', like the one planned 
for Jacksonville.
    As all of you know, the current Jacksonville VA Clinic is located 
next to the University of Florida's Health Science Center at Shand's 
Hospital. The North Florida VA health care system has a strong and 
meaningful affiliation with the University of Florida. And, VA 
expansion at the current site with a collaborative partnership could 
yield substantial benefits for veterans.
    Sharing is not a new concept. VA has been sharing human capital for 
years with its affiliations among our Nation's teaching universities.
    In Charleston, SC, there is a tremendous opportunity for VA to 
replace its aging hospital with a mutually beneficial agreement to 
share facilities and integrate the delivery of veterans' health care 
with the new Medical University of South Carolina (MUSC) hospital. This 
approach to share facilities, which I take great pride in developing, 
is now being referred to as ``The Charleston Model'' within the VA.
    As we work with the VA and MUSC, we continue to see that their 
goals are not that different and we can set a course to build a new 
paradigm for cooperation that will be an example throughout the Nation.
    I believe that collaboration whether it is between VA and DoD, VA 
and its Medical Affiliates, or VA and other private-sector entities is 
a powerful tool that VA must leverage to ensure that our veterans have 
the greatest access to the most advanced medicine and medical 
technology.
    As we look at the future development of the VA, it is also vital 
that the VA establish strategic and long-term plans for energy 
sustainability. Especially here in the ``Sunshine State'', VA must 
consider the use of solar energy to power VA health care facilities. I 
am pleased that VA is planning to fund at least 24 feasibility studies 
for solar photovoltaic systems in its medical facilities, including 
four sites in Florida--Orlando, Bay Pines, Tampa and Miami.
    I strongly encourage VA to consider solar and other energy 
efficiencies in the developing projects in Gainesville and 
Jacksonville.
    In closing, I would like to thank all of our witnesses for 
appearing before the Committee today. Again, on behalf of Cliff 
Stearns, I want to recognize Stan Jordan--a retired Army Colonel and 
member of the Duval County School Board. Colonel Jordan was a former 
member of the Florida House of Representatives and Chairman of 
Florida's House Committee on Military & Veterans' Affairs. I would also 
like to thank Dan Hughes, Chairman of the Jacksonville National 
Cemetery Advisory Committee for being here today.
    It is important that we listen to the views of local veterans on 
how VA is serving you and I look forward to hearing from all of our 
witnesses.

                                 <F-dash>

  Prepared Statement of Gunnery Sergeant Herschel Allen, USMC (Ret.), 
      Duval County Veteran Service Officer/Veteran Service Officer
  Supervisor, City of Jacksonville, FL, Division of Military Affairs,
                Veterans and Disabled Services Division

    <bullet>  My credentials
        <bullet>  past
        <bullet>  present with duties

    <bullet>  CARE commission
        <bullet>  findings
        <bullet>  proposals
        <bullet>  results

    <bullet>  Data on VAOPC Jax
        <bullet>  vets seen daily
        <bullet>  1st quarter 09 visits
        <bullet>  1st quarter uniques
        <bullet>  Future estimates

    <bullet>  Duval County veteran data
        <bullet>  receiving VA benefits
        <bullet>  average increase
        <bullet>  K.L.F. estimate

    <bullet>  VAOPC location
        <bullet>  congested
        <bullet>  parking
        <bullet>  crime
        <bullet>  not centralized
        <bullet>  size
        <bullet>  leased

    <bullet>  Veteran's concerns and thoughts
        <bullet>  Questions?

                                 <F-dash>

 Prepared Statement of Hallie Williams-Bey Chairman, Northeast Florida 
                   Veterans Council, Jacksonville, FL

      BUILDING THE CRITICAL HEALTH INFRASTRUCTURE FOR VETERANS IN 
                         JACKSONVILLE, FLORIDA

    A 6-year Prostate Cancer Survivor. . . 
    I was first told that I had Prostate Cancer by a private physician 
in 2000. I began to talk to other Veterans and it was suggested to have 
the VA check results also. I visited the local clinic where I 
established my record and was later informed that I had a 2-year wait 
for a Lake City appointment.
    During this waiting period I used my private physician and started 
hormone & radiation treatments and seed implantation. I submitted all 
documents to the VA and was awarded 100 percent for 18 months. When I 
finally went to the Lake City VA Hospital, there was no Cancer and, at 
the end of 18 months, Disability was reduced to 10 percent and still is 
now. I visit the local clinic two to four times a year since then and 
up to the current year. The area is small and most times congested. I 
have also been to the other clinic sites for medical services. The 
parking becomes a real problem and some facilities don't even have 
public transportation available.
    There is a Shands Hospice facility across the street from the 
current VA Clinic. Is it possible this could be used as a VA Clinic to 
house all services and the empty lot to be used to develop a new 
Hospice Center???
    I was at the VA Clinic April 13, 2009 for lab work from 8 to 11 AM. 
I did a personal survey with many Veterans present. We need a new 
Clinic that is centrally located for public transportation and the 
Handicap parking should be increased with more parking spaces and 
please seriously consider hiring more Veterans than Civilians.
    Currently serving as Chairman of the Northeast Florida Veterans 
Council, representing 33 paid groups, but over 100+ local groups who 
participate in Memorial Day, Veterans Day Observance and other Military 
events; I am also a member of the following organizations:

    American Legion Post 197--Past Post Commander (life member)--also 
40&8 Passe Chef de Gare (chartered and life member)
    Veterans of Foreign Wars Daniel ``Chappie'' James Post 4761--Past 
Post Commander (life member)
    Montford Point Marines Association--(Chaplain and life member)
    FLA Chapter 7 DAV (Disabled American Veterans)--Legislative Officer
    BRAVO (Brotherhood Rally for American Veterans Organizations)--Past 
President
    NABVETS (National Association of Black Veterans)--Life member

    Dedicated Service . . . with Honor

                                 <F-dash>

  Prepared Statement of Guy Diffenbaugh, Commander, Jacksonville, FL, 
                 Chapter 1, Disabled American Veterans

    Chairman Filner, Congresswoman Brown, and other present Members of 
the Committee on Veterans' Affairs, my name is Guy Diffenbaugh, 
Commander of Jacksonville Chapter 1 of the Disabled American Veterans 
and I am honored to be here and give a statement concerning the 
Building of a Critical Health Infrastructure for Veterans in 
Jacksonville, Florida.
    First I wish to thank you on behalf of all veterans for your 
support and funding of veterans' programs.
    The DAV and other Veteran Service Organizations have previously 
made Congress aware of the issues concerning veterans' appropriations 
so I will only reiterate those issues pertaining to health care and 
specifically the concerns we have here in Jacksonville. I have asked 
the VA for data to support my claims but was told I was not privy to 
the same and that the VISN would present supporting data so I will 
present information based upon my personal experience and that of 
members of my organization, supported by some research done on my 
personal computer.
    I am in the VA health care system and find the care I receive 
exceptional. I can assure you that, though these professionals provide 
excellence, the system is crowded, especially in the Jacksonville 
Outpatient Clinic. We were supposed to have a new clinic operational by 
the fall of 2005. Increased size and some services currently available 
only at the VA Medical Centers in Gainesville and Lake City are 
supposed to be and should be incorporated in the new clinic as well as 
adequate parking. Our present clinic is not large enough to adequately 
support the veteran population and our parking extends for city blocks 
to include a dirt lot.
    An additional factor that our organization has expressed concern 
for is allowing Category 8 veterans into the health care system that 
was not designed to handle these veterans. With the VA estimate of 1300 
new veterans in the North Florida South Georgia VA Health Care System 
alone (though 100,000 have signed up and are on the waiting list) we 
would have an unacceptable degradation to the delivery of health care.
    According to the Florida Department of Veterans Affairs Annual 
Report dated 31 December 2008, Duval County has the fifth largest 
veteran population in the state and is the only county of significant 
veteran population density without a VA Medical Center in close 
proximity. We must travel 1+ hour for limited capability at Lake City 
Medical Center and \1/2\-plus hour to reach the full service 
Gainesville Medical Center. The DAV provides 15 passenger vans to 
transport veterans to the hospitals. My Chapter has recently purchased 
2 vans for transport to Lake City and Gainesville. These vans are full 
5 days per week with waiting lists. Although the Jacksonville area may 
be the 5th largest concentration of veterans in Florida it stands to 
reason that with the massive rate of deaths of WWII veterans retired in 
south Florida and the largest military presence in Florida being the 
North Florida Southeast Georgia area (many of which love the area and 
retire here) the Jacksonville area veteran population should in the 
near future become the largest density in the state.
    The VA needs to complete a full service clinic or medical center to 
service our area. It's time to take action. We are already 4 years 
beyond the announced opening date. As Congresswoman Brown said in the 
summer of 2006, referring to the impasse, ``we need to work out the 
issues so this doesn't go on for years'' and ``an impasse over another 
VA project in the Orlando area delayed it for 25 years''. The Committee 
is well aware of the DAV's position on veterans' entitlements. On 24 
February 2009, our National Commander addressed a Joint Congressional 
Hearing of the Committee for veterans Affairs in Washington, D.C., and 
the Committee was in agreement on the issues from Advanced 
Appropriation to Entitlements. Since there is agreement the only 
missing component is action. On behalf of all veterans, I ask you to 
make a decision this year and back it with action.

                                 <F-dash>

 Prepared Statement of Master Sergeant James H. Tippins, USMC (Ret.), 
    President, Chapter 29, Jacksonville, FL, Montford Point Marine 
                              Association

    Honorable Representatives. I am James H. Tippins, a patient at the 
Jacksonville, Florida VA Outpatient Clinic located at 1833 Boulevard 
Street, Jacksonville, FL 32206.
    In my opinion the clinic staff does an overall excellent job of 
patient care and service based on the conditions that they are faced 
with, such as the number of patients they are required to service from 
South Georgia and North Florida, with the inadequate facilities 
available. However I have TRICARE for Life and can go to other 
hospitals, that is a blessing because I was diagnosed as having 
prostate cancer, and the VA had no urologist available and my PSA 
reading elevated to 29, and the only reason that I am here today is 
that I had the option of TRICARE for life.
    When you get into the local system and assigned to a team, the 
primary care doctor usually will monitor your condition and accomplish 
good patient care. The pharmacy and laboratory is excellent but is 
regularly overcrowded due to the patient load, although the eye clinic 
regularly has a 3-4 hour wait. Overall with the number of veterans 
located in this area the present facilities need to be improved to 
maintain and provide the patient health care.
    As part of this presentation I visited the listed veteran's 
organizations to get input from their membership to include in this 
hearing.

        1.  VFW Post #4761
        2.  American Legion Post #197
        3.  Montford Point Marines Chapter #29

    In summary, there is a major problem in getting health records from 
active duty to the VA, has caused hardship and frustration in verifying 
service connected disabilities. Suggestion if transition process 
included getting the health records forwarded to the local VA with the 
new technology this could be accomplished during the check out 
procedure when released from active duty.
    There is a problem getting specialty care at the Jacksonville 
clinic and getting an appointment at Lake City or Gainesville hospital 
is very difficult. Transportation to hospitals is not always available 
to meet the scheduled appointments. Many veterans have physical 
problems that develop after being released from active duty and proving 
that the illness is service connected has been a major dilemma, such as 
the Gulf War, hearing problems developed from serving in artillery, 
joint troubles knees, legs, etc. These aliments normally don't 
transpire until years later.
    Emergency care is almost none existence at the local clinic and 
getting to the hospitals for treatment 40 miles away could be better 
served with a local hospital.
    There has been a noticeable increase in the number of veterans in 
the Jacksonville area seeking health care as promised by the government 
for military service.
    In conclusion the North Florida and South Georgia area need a 
hospital to meet the increase need for VA health care. Although the 
clinic achieve a commendable job with what's available to the local 
staff.

                                 <F-dash>

  Statement of Corporal Daniel V. Hughes, Sr., USMC (Ret.), Chairman, 
         Jacksonville, FL, National Cemetery Advisory Committee

    I serve on Congressman John Mica's Committee on Veterans Affairs as 
a volunteer. I have been helping veterans for 38 years. The issue of 
health care and facility management is of great importance and concern 
to our veterans and their families. The Marine Corps has given me 
respect, honesty and integrity. That is the code that I run my life by. 
Our service men and women and their families deserve the best we can 
give them for their sacrifices.
    For the record, I address health issues of great importance to our 
veterans and their families in my report. I want to thank the Committee 
and welcome you all too sunny Florida. Please accept my thanks for 
allowing me to speak before you today.

Suicides: All Time High
    There are as many suicides as there are men and women killed on the 
battle field. The challenge is to get our soldiers to open up with 
their problems. The majority of the suicides have occurred once the 
troops have returned home. The need for trained psychiatrist in our 
clinics is needed. Some of our clinics do not have this service or the 
funds to acquire them.
    Problem Statement: Active duty military personnel, Reservists and 
National Guard units do not currently have access to ongoing programs 
and services to help re-integrate them back into civilian and family 
life. There is also a challenge in accessing confidential military 
health and support services addressing the effects of Post-Traumatic 
Stress Disorder (PTSD) and other psychological problems, which can 
dramatically impact our troops and their families.
    We need to provide the resources to assist our veterans in 
transitioning from military life and help them replace the military 
unit with the family unit. To accomplish this objective we need a 
program to train and employ veterans who will assist in providing the 
network of programs and resources that our transitioning heroes and 
their families require.

24-Hour Help Hot Line
    As a part of ongoing services a 24-Hour Hotline to assist our vets 
and their families with urgent issues needs to be provided. This line 
would be staffed by trained Veterans Crisis Counselors who will work 
with the callers to guide them to the resources needed at that moment. 
If emergency services intervention is required the Crises Counselors 
will contact the required providers and stay on the phone with the 
callers until help is secured.

Traumatic Brain Injury (TBI)
    What is being done to assist veterans with Traumatic Brain Injuries 
is an exploding problem. This most perplexing wound comes out of the 
Afghanistan and Iraqi wars. Soldiers stationed in Afghanistan and Iraq 
are constantly faced with the perils of improvised explosive devices 
(IED's), rocket propelled grenades and land mines. The path of 
destruction often leads to blindness, deafness and catastrophic 
injuries and multiple amputations. In the past 6 years, officially 
about 15 percent of all wounded vets have struggled with a traumatic 
brain injury. At this time this number has increased substantially.
    Answer: Every GI coming back from the war zone needs to be screened 
and x-rayed along with a complete debriefing before being released back 
into society. We need a special clinical department to care for these 
men and women along with specially trained psychiatrists. TBI is 
invisible to the naked eye. Over 20,000 cases have been reported. These 
insidious wounds can plague those suffering for years. I want to thank 
the Veterans Affairs Committee chaired by Representative Bob Filner for 
the proposed bill H.R. 2199, which provides for mandatory screening. We 
must continue to follow up with this effort, along with other 
continuous treatments at our centers.
    More emphasis needs to be put on present day health issues and 
specialty doctors to handle these brain injuries. Today's health issues 
are a little different from previous wars. Hands on management is 
needed along with qualified staff as well as additional nurses to 
handle the work load. Today we are faced with many serious medical 
problems in our hospitals as well as our clinics. There is no reason to 
have unsanitary issues in any of our health facilities. This is due to 
a lack of supervision from management doctors on staff. To meet the 
demand there is confusion and the outcome from this confusion is 
mistakes, which are very serious in nature.
    Most of our clinics are over run with veterans with serious health 
problems, for example: Daytona Beach Clinic, which is a new facility 
and has already had one expansion and needs another with 800 veterans a 
day coming through the doors. A lack of money and staff has created 
numerous problems.

Alzheimer's
    I now want to talk about a very serious illness and that is 
Alzheimer's. This disease has taken its toll on our older veterans. All 
of our nursing homes should have in its facility an Alzheimer's unit. 
It should be a locked down unit along with specially trained volunteers 
and nurses.
    The lack of this service in our VA system has forced a lot of our 
veterans into private nursing homes. We are blessed at this time to 
have received a new nursing home at Gulf World Village with an 
Alzheimer's unit in it. We as veterans would like to thank you for this 
blessing. Those nursing homes without an Alzheimer's unit must be 
reassessed so as to incorporate such a unit to better service our 
veterans with this terrible disease.

Qualified Doctors and Staff
    One of the biggest problems we are having at all of our VA 
facilities is acquiring better doctors and staff to meet the demand. At 
this time the system is struggling to care for our veterans. Our 
clinics and our hospitals do the best that they can with the budget 
that they have to work with. That is not good enough. Our veterans 
deserve better. Due to budget shortages, we leave ourselves open for 
mistakes, which then result in lawsuits.
    To eliminate the above we must acquire the best of doctors. Pay 
them well, so that they will stay and give our veterans the service 
they deserve. We must also purchase the best medical equipment that is 
out in the market. Our terminally ill veterans must travel a long 
distance for care at our hospitals and clinics. A lot of these patients 
depend on the Disabled American Veterans (DAV) van or friends to 
transport them the distance to receive their care. We veterans that 
live in the northeast section of Florida must either travel to 
Gainesville or Orlando for hospital care. If you are terminally ill it 
makes for a very rough day. A new hospital located in the Jacksonville 
area is badly needed.

Summary
    In closing, those of us that have served our country, past and 
present, ask our representatives serving on the prestigious Veterans 
Affairs Committee to please continue the work in improving our health 
care needs. The system is good, but it has some cracks that need to be 
filled. As veterans, we continue to put our lives on the line for a 
just cause that is so dear to our hearts, and that is freedom. The 
freedoms that have made this country great now and in the future. Many 
years ago a promise was made to our veterans, that promise must be 
kept. To this day, many veterans and their families have given the 
supreme sacrifice and received permanent traumatic injuries that last a 
lifetime. God Bless our veterans and our country.
    Thank you!
    Yours through Veterans!

                                 <F-dash>

  Prepared Statement of Colonel Stan Jordan, USA (Ret.) Duval County 
           School Board Member, District 1, Jacksonville, FL

    Dear Mr. Chairman and Members of the House of Representatives:
    My name is Stan Jordan. I am a retired Colonel of the United States 
Army. I had the pleasure of serving as an Army Aviator and the military 
gave me one of the finest educational opportunities available. I am 
currently a member of the Duval County School Board where I serve as 
military liaison for our community. During the past 8 years I served in 
the Florida House of Representatives, of which 6 years I served as 
Chairman of the Military and Veterans Affairs Committee.
    As Chairman of the Committee we worked very closely with the U.S. 
Congress to better serve the veteran community. A few examples are the 
additional veteran homes in our State and the establishment of a 
national Veterans Cemetery in Jacksonville.
    My testimony will not include asking for anything for these are 
times where leadership is tested for the level of creativity in the 
challenge of doing more with less. Let me share a few examples of how 
we continue to salute, honor and serve our veterans at no cost to the 
taxpayers.

        1.  I had the privilege of sponsoring legislation to create 
        military license plates whereby $25.00 extra is paid for the 
        license plate. A copy of my final report to the community as a 
        member of the House of Representatives is attached so you can 
        see the distinctive and creative design of our military license 
        plates. They are well accepted by the military members, 
        families and supporters. The State of Florida has raised 
        millions of dollars for our veteran homes from this project.
        2.  Annually the Florida House of Representatives sponsors 
        Military Appreciation Day where all who have served and are 
        serving are honored. On page 2 of the Newsletter you can see a 
        sample of the programs provided. You can also go to 
        www.FloridaSalutes.com and see a video of the entire military 
        presentation. The Florida Channel shows these programs 
        statewide in their entirety every 4th of July and on November 
        11th as an ongoing salute to the Military. This military salute 
        lives on at no cost to the taxpayers and is an inspirational, 
        dignified example of what you can do by simply being creative.
        3.  As a School Board member, just 2 weeks ago I sponsored and 
        the Board passed a provision to give WWII and Korean conflict 
        Veterans a high school diploma if they did not get one during 
        their years of service. We further provided that they can go to 
        the high school graduation of their choice and walk across the 
        stage or come to our televised School Board Meeting to receive 
        their diploma. Again, a no cost provision for our Veterans, 
        which involves only a little bit of thank you time.

    The above suggestions can be carried out by all communities and 
States to continue raising the level of respect and honor those who 
have served with courage, sacrifice and dignity. Thank you. I remain,
    Respectfully yours.
    [The attachment is being retained in the Committee files.]

                                 <F-dash>

         Prepared Statement of Robert L. Neary, Jr., Director,
     Service Delivery Office, Office of Construction and Facilities
            Management, U.S. Department of Veterans Affairs

    Mr. Chairman, Ranking Member Buyer and Members of the Committee. I 
am pleased to appear before the Committee today to discuss the progress 
that is being made to improve facilities at the Department of Veterans 
Affairs Medical Center (VAMC) in Gainesville and at the new 
Jacksonville VA National Cemetery. This hearing provides an opportunity 
to update the Committee and members of the veteran community on the 
status of the major construction project currently under construction 
at Gainesville. First, let me introduce those joining me at the table 
today, Mr. Reginald Lawrence, Team Leader at the Jacksonville Vet 
Center that is part of the Veterans Health Administration Readjustment 
Counseling Service, and Mr. Tom Cappello, Director of the North 
Florida/South Georgia Veterans Health System.
    In August of 2008, VA began construction on a new patient bed tower 
at the North Florida South Georgia VA facility in Gainesville. This new 
five-story tower will provide 226 private patient rooms with private 
toilet and bathing facilities. The patient bedrooms will occupy four 
floors. Patient care support services will be on the ground floor. In 
total, 245,000 gross square feet of new construction will be provided.
    This facility will provide state-of-the-art patient bedrooms. 
Currently, most bedrooms in the Gainesville hospital have two or more 
beds. The new rooms will enable greater patient privacy, a better 
opportunity for patients to interact with their families and caregivers 
and better prevent infections.
    Funding in the amount of $136.7 million has been appropriated for 
this facility. Construction is now ongoing with the project 
approximately 15 percent complete. The project is scheduled to be 
completed in April 2011.
    The Department recently opened the new VA National Cemetery in 
Jacksonville for burials. This was accomplished through the development 
of a small portion of the property. The design of the larger first 
phase of build-out for the new cemetery was recently completed and is 
undergoing final design review. We anticipate awarding a construction 
contract in August of this year. When completed in the summer of 2011, 
approximately 50 acres will have been developed to accommodate burials 
for 10 years. This will include approximately 7,500 gravesites for 
casket interments, a 4,500 niche columbarium, 500 in-ground sites for 
cremated remains along with an administration and public information 
center with an electronic gravesite locator, a memorial walkway area 
and necessary maintenance facilities. Funds totaling $22.4 million have 
been appropriated for this new National Cemetery.
    These projects demonstrate the Nation's commitment to care for our 
veteran heroes. Not only in Gainesville and Jacksonville, but across 
the country, new and improved facilities for veterans are in design or 
construction. Since 2004, nearly $5.6 billion have been appropriated 
for the Department's major construction program with over 50 major 
projects receiving funding to provide new facilities and improve and 
expand existing ones.
    We look forward to completing the new Gainesville bed tower and the 
Jacksonville cemetery as well as facilities at other locations, and we 
will be pleased to answer questions the Committee may have.

                                 <F-dash>

  Prepared Statement of Reginald M. Lawrence, SRCT, CPP, Team Leader, 
       Jacksonville, Vet Center, Readjustment Counseling Service,
  Veterans Health Administration, U.S. Department of Veterans Affairs

    Good Morning, Chairman Filner, Congresswoman Brown, and Members of 
the Committee. I appreciate the opportunity to appear before you today 
to discuss the role of the Jacksonville Vet Center in ``Building the 
Critical Health Infrastructure for Veterans in Jacksonville and 
Northeast Florida/Southeast Georgia.'' I also extend to you a warm 
greeting from Dr. Alfonso R. Batres, Chief Officer of Readjustment 
Counseling Service, Washington, DC. I am accompanied today by Mr. 
Thomas Cappello, MPH, FACHE, Director of the North Florida/South 
Georgia Veterans Health System and Mr. Robert Neary, Director of the 
Service Delivery Office in the VA Office of Construction Management.
    I have tailored my remarks to include not only Jacksonville, but 
North Florida and South Georgia as well, since our care for veterans 
and their families extends to multiple counties in both states. Prior 
to the opening of the Gainesville Vet Center in 2007, the Jacksonville 
Vet Center served 14 counties in North Florida, and two counties in 
South Georgia. We currently serve 11 counties in North Florida, 
including Duval, Bradford, Baker, Clay, Columbia, Flagler, Nassau, 
Putnam, St. Johns, Volusia, and Union counties, and two in South 
Georgia, including Camden and Charlton counties. We estimate the total 
veteran population in the area at just over 250,000. In Duval County 
alone, we estimate the veteran population at approximately 150,000. In 
Fiscal Year (FY) 2008, we recorded 4,726 visits for direct service, 
totaling 3,063 hours of client contact and 7,764 hours of core staff 
employment. We also provided counseling services to 439 veterans of 
Operation Enduring Freedom or Operation Iraqi Freedom (OEF/OIF).
    Since Vet Centers were enacted by law in 1979, the Jacksonville Vet 
Center has provided readjustment counseling to over 35,800 veterans. We 
have documented an average of 4,800 visits per year since our initial 
opening in March 1980. The core mission of our Vet Center is to provide 
readjustment counseling and outreach services to veterans exposed to 
war trauma in armed combat theaters of operations. Our Vet Center 
provides a wide range of services with a holistic approach to aid the 
returning and post-deployed combat veteran with the ability to 
transcend the emotional and psychological traumas of war and to re-
integrate themselves back into their communities successfully. Our 
focus on successfully enabling this transition entails a full 
examination of their post-military, economic, social and family needs. 
Our role is central to meeting the ongoing health care needs of post-
deployed Veterans in conjunction with the VA North Florida/South 
Georgia Veterans Health System. The Jacksonville Vet Center provides 
professional services for post-traumatic stress disorder (PTSD) and 
other war-related issues through individual, group, marital and family 
counseling, along with Substance Abuse, Military Sexual Trauma, and 
Bereavement Counseling. In addition, we provide counseling to homeless 
veterans, veterans seeking employment, and veterans with crisis 
intervention needs. We have a direct referral system for VA benefits 
information and assistance to other agencies in the community.
    A special feature of our services to veterans is our Fee Contracts 
Program, which is designed to provide counseling services for PTSD to 
veterans in rural areas and to those experiencing either financial 
difficulties or transportation problems in accessing VA services. The 
program allows direct counseling and treatment by private professionals 
who contract with our Vet Center for these services. This program is 
operational in St. Augustine and Daytona Beach, Florida.
    We have collaborated very effectively with existing VA programs and 
other community-based programs by establishing ``Memoranda of 
Understanding'' upon referrals to our Vet Center to address specific 
needs of veterans. For example, we have a program for veterans referred 
to us by the Northeast Florida Safety Council for veterans cited for 
driving under the influence. This arrangement allows us to assess these 
veterans, who may not otherwise be seeking services from a Vet Center 
or another VA facility, for PTSD or other conditions. Recent studies 
have found a disproportionate rate of returning veterans have been 
cited for driving under the influence.
    Another core mission of the Jacksonville Vet Center is to provide 
Outreach Services to veterans and community-based organizations to 
inform them of Vet Center and VA services. In 2005, the Jacksonville 
Vet Center hired an OEF/OIF Outreach Specialist. The position is for an 
OIF/OEF veteran who will conduct outreach to Active Duty, National 
Guard and Reserve Units to inform them and their families of available 
VA services. Since 2003, we have served over 2,200 OEF/OIF veterans and 
their families at the Jacksonville Vet Center. We also provide 
bereavement counseling to family members of military personnel who lost 
their lives while on active duty. Thus far, we have provided 
bereavement counseling services to 15 families of OEF/OIF veterans in 
our service area.
    Historically, the Jacksonville Vet Center provides veterans a point 
of contact for access into the VA health care system and benefits 
programs. We welcome the opportunity to be a part of ``Building the 
Critical Health Infrastructure for Veterans'' in Jacksonville, Florida. 
We remain committed to ``Keeping the Promise'' of providing the highest 
quality care to veterans and their families at the Jacksonville Vet 
Center. Thank you, Mr. Chairman and Members of the Committee, for 
allowing me to appear today. I will be happy to answer any questions 
that you or other Members of the Committee may have.

                                 <all>

</pre></body></html>
